<html>
<title> - [H.A.S.C. No. 111-171] MODELING AND SIMULATION: ENHANCING MILITARY READINESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-171] 

         MODELING AND SIMULATION: ENHANCING MILITARY READINESS 
                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 20, 2010

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-291 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














                       SUBCOMMITTEE ON READINESS

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland     CHARLES K. DJOU, Hawaii
BOBBY BRIGHT, Alabama
JOHN GARAMENDI, California
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia
               Vickie Plunkett, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Katy Bloomberg, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, July 20, 2010, Modeling and Simulation: Enhancing 
  Military Readiness.............................................     1

Appendix:

Tuesday, July 20, 2010...........................................    33
                              ----------                              

                         TUESDAY, JULY 20, 2010
         MODELING AND SIMULATION: ENHANCING MILITARY READINESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Subcommittee on Readiness..............................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Burke, Vice Adm. William, USN, Deputy Chief of Naval Operations, 
  Fleet Readiness and Logistics (N4).............................     4
Gibson, Maj. Gen. Marke F., USAF, Director of Operations, Deputy 
  Chief of Staff for Operations, Plans and Requirements, 
  Headquarters U.S. Air Force....................................     7
Layfield, Maj. Gen. Stephen R., USA, Director, Joint Training and 
  Joint Warfighting Center, U.S. Joint Forces Command............     5
Lewis, Rear Adm. Fred L., USN (Ret.), President, National 
  Training and Simulation Association............................     9

                                APPENDIX

Prepared Statements:

    Burke, Vice Adm. William.....................................    39
    Forbes, Hon. J. Randy........................................    38
    Gibson, Maj. Gen. Marke F....................................    82
    Layfield, Maj. Gen. Stephen R................................    74
    Lewis, Rear Adm. Fred L......................................    91
    Ortiz, Hon. Solomon P........................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   103

Questions Submitted by Members Post Hearing:

    Mr. Ortiz....................................................   107
    Mr. Wittman..................................................   115
         MODELING AND SIMULATION: ENHANCING MILITARY READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, July 20, 2010.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
        FROM TEXAS, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Ortiz. The subcommittee will come to order. Today the 
Readiness Subcommittee meets to hear testimony on the use of 
modeling and simulation [M&S] to enhance military readiness.
    I want to thank our distinguished witnesses from Department 
of Defense [DOD] and industry for appearing before the 
subcommittee today, and thank you so much for joining us this 
morning.
    As co-chairman of the Congressional Modeling and Simulation 
Caucus, with my good friend Randy Forbes, of Virginia, I am 
very pleased to have this opportunity to discuss how modeling 
and simulation can improve training, reduce operation and 
maintenance costs, and increase the life cycle of weapons 
systems. Our thanks go to Joint Forces Command for providing 
the Future Immersive Training Environment simulator so that 
members would get a firsthand experience with the latest 
simulation technology.
    And I had a chance to look at the weapon and fire, and I 
just could tell by just--that I am out of shape.
    But anyway, the military services have all, to some degree, 
invested in modeling and simulation to improve training, reduce 
costs, and improve the accuracy of budgeting and material 
maintenance projects. The services' efforts vary in complexity 
and change continuously as technological advances in modeling 
and simulation provide improved capability shaped to meet 
Department of Defense needs.
    Today we will examine a few of the modeling and simulation 
tools available to the department as examples of how this 
technology helps enhance military readiness. These range from 
the Navy's readiness models, used to determine resourcing 
requirements, such as flying hours and maintenance activities, 
to immersive training for ground combat, realistic flight 
simulation, and network missions operations.
    We will also look at how industry responds to the 
department needs for modeling and simulation capabilities as 
well as examine potential downsides to overreliance upon 
simulated versus real-world training.
    And we are very fortunate to have the witnesses that we 
have today, at this hearing today. We have Vice Admiral William 
Burke, United States Navy, Deputy Chief of Naval Operations, 
Fleet Readiness, and Logistics.
    Sir, thank you so much.
    Major General Stephen R. Layfield, United States Army, 
director, Joint Training and Joint Warfighting Center, United 
States Joint Forces Command; and Major General Marke F. Gibson, 
United States Air Force, director of operations, deputy chief 
of staff for operations, plans, and requirements, Headquarters 
United States Air Force; and Rear Admiral Fred L. Lewis, United 
States Navy, retired, president of Naval Training and 
Simulation Association.
    And at this moment the Chair recognizes the distinguished 
gentleman from Virginia, Mr. Forbes, my good friend, for any 
remark that he would like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
      VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Thank you. And, Mr. Chairman, I have a written 
statement that, with your permission, I would like to put in 
the record, but I would like to just make a few other 
comments----
    Mr. Ortiz. No objection. So ordered.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 38.]
    Mr. Forbes [continuing]. If I could.
    I am not sure, when we are up here oftentimes we say this 
is one of the most important hearings that we will have in 
Congress, and I don't know that too many people would, perhaps, 
agree with us if we said that this morning, but I would say 
this: I think that the topic we are talking about is one of the 
most important topics that we can be talking about, given the 
current situation of where we are in the country.
    Mr. Chairman, I want to first thank you for co-chairing the 
Modeling and Simulation Caucus. I want to thank you for holding 
this hearing.
    I want to thank each of our witnesses, because it will be 
up to us to be able to articulate to all of our colleagues and 
to Congress the importance of what you are able to give to us 
as a country. We know the incredible economic value of modeling 
and simulation that we look at, and we can see that any place 
we go across the country. We also know, pretty much, the 
training capacity.
    I just don't think we can get to the jointness capability 
that we need to be as a nation without modeling and simulation. 
You guys can help bring that to the forefront so that our 
colleagues understand that.
    Secondly, I don't think we can afford to do all the testing 
that we need to do today without modeling and simulation. That 
is just beyond our reach.
    General, I think you are going to be able to tell us some 
of the things that we can utilize modeling and simulation for 
as far as keeping the readiness of our fleet and our aircraft 
and the stuff that we are going to be utilizing there. But 
there is a third component that I hope that at some point in 
time we can have a discussion on, if not today then down the 
road.
    Recently I had a lady that met me in the hall and she gave 
me an envelope. And she said, ``Congressman, will you just read 
this envelope? I have been trying to get it in somewhere in 
government, and I can't get it there.''
    And that night I took the envelope, I opened it, and I read 
it. Her husband worked for an environmental company and they 
had a piece of equipment that literally would take oil out of 
water. It wasn't a theory; it wasn't a prototype they were 
working on. It was functioning right then in West Virginia. All 
they needed to do was put it on barges.
    When I began to examine it I found out that it was not only 
that letter but thousands of ideas like that across the country 
that we just don't have a mechanism in government to handle 
those kinds of ideas and those kinds of thoughts.
    I think we know now, whether it is a hurricane situation 
like Katrina or an oil spill, one of the things that is very 
difficult for us as a government is when we are trying to make 
decisions we oftentimes put a few smart men and women in a 
room, and we are trying to filter out all of these ideas, 
concepts that are taking place with people in garages somewhere 
across the country, laboratories somewhere across the country, 
and we are not able to do that and process that very well.
    So Congressman Scott and I are working on a piece of 
legislation called the American Response Act that would really 
take the component that we are working on on interagency 
cooperation, and where we can really create an opportunity for 
agencies to talk with each other, which they still can't do the 
way the military can do, but then overlay that with modeling 
and simulation so that we will be able to take those thousands 
of ideas that are coming in and process them through a virtual 
world so that we can walk in and look 80 days down the road, 90 
days down the road, and then come back on day 2, day 3, day 4, 
and say, ``Now we are going to make decisions based on the way 
the world will look 80, 90 days down the road.''
    Doesn't matter what administration or where it is. America 
needs that to be able to respond to the kind of crises we will 
take in the future.
    And you gentlemen have the key to that in what you are 
doing in modeling and simulation.
    And the last thing I will tell you is this: There is always 
a fear, when we have a hearing like this, there will be people 
who will say, ``Well, I don't want them to think we are going 
to actually be able to do these things.'' I remember years ago 
one of my favorite places for my children to go was Disney 
World, and about 15 years ago I remember coming out of one of 
their futuristic displays and looking, and they had people 
talking to each other and having their pictures on telephones, 
and I remember looking at that and we were laughing and saying, 
``I wonder if that will ever happen?'' Today when you look at 
some of those exhibits they look historic because we have 
surpassed that.
    I know in the early part of the 1960s when we talked about 
putting men on the moon there were people who said, ``You know, 
that is never going to happen.'' We had people walk on the 
moon.
    You guys have an opportunity for us to create a world where 
as policymakers we can walk into the future, we can look 
around, we can decide if we like it or not, and then we can 
come back and have more informed decisions, and we have not 
cost as much money, we haven't cost lives, and we have saved 
quantities of time. And for that I just thank you for being 
here. We are looking forward to your testimony.
    And then hopefully the chairman and I and this committee 
can help move this entire industry along to do what we think 
you can do for our country. So thank you so much for being 
here.
    Mr. Chairman, thank you for holding this hearing.
    Mr. Ortiz. You know, the world has changed a lot and we 
need to stay ahead of the curve. We need to do that--as the 
world moves we need to move with it, and there are a lot of 
changes. We see China; we see other countries moving ahead.
    And you probably saw on CNN what they saw--they thought it 
was a, you know, extra terrestrial, but they think it was a 
missile being fired. So this is great, what we are doing now.
    So now let me--Admiral Burke, please proceed with your 
testimony, followed by General Layfield, General Gibson, and 
Admiral Lewis. So whenever you are ready, Admiral, go right 
ahead, sir.

  STATEMENT OF VICE ADM. WILLIAM BURKE, USN, DEPUTY CHIEF OF 
      NAVAL OPERATIONS, FLEET READINESS AND LOGISTICS (N4)

    Admiral Burke. Yes, sir.
    Chairman Ortiz, Representative Forbes, distinguished 
members of the House Armed Services Readiness Subcommittee, it 
is my honor to appear before you to testify on the Navy 
readiness models alongside General Layfield, General Gibson, 
and Admiral Lewis.
    Today our Navy remains engaged in supporting operations in 
Afghanistan, Iraq, and all other combatant commander [COCOM] 
areas of responsibility. We have over 120 ships deployed, which 
is more than 40 percent of our fleet, a Global Force for Good 
on station around the world deterring interaction, keeping sea 
lanes open for free trade, and, when necessary, projecting 
power.
    Several dozen ships and subs are underway as part of 
preparations for deployment, and dozens more are in port 
training and conducting maintenance as they prepare for 
deployment. Others are in deep maintenance, resetting, and 
stride. Our Aviation, Special Warfare, and Naval Expeditionary 
Combat Command assets are going through a similar regimen.
    The Combatant Commander demand signal, as managed by the 
Global Force Management Board process, defines the capability 
needed to satisfy presence and surge requirements worldwide. 
The Fleet Response Plan describes the Navy process necessary to 
maintain, train, sustain, and deploy our forces in response to 
that demand.
    Our readiness models identify the resources necessary to 
deliver that capability. As a result, I have high confidence in 
the accuracy of the readiness and maintenance budget 
submission.
    A few years ago we recognized the need to transition from a 
requirement based heavily on historic norms to a model 
requirement based on quantitative analysis of force generation 
and operations parameters. We have four interdependent 
readiness resourcing models that have been subjected to 
rigorous verification, validation, and accreditation supported 
by Johns Hopkins University of Applied Physics Laboratory 
[APL].
    Our models are fully accredited and give us the ability to 
predict the cost of global operations in a dynamic operating 
environment. These results form the basis of the Navy's 
readiness budget submission throughout the programming, 
budgeting, and execution process.
    Navy ships and aircraft are capital-intensive forces that, 
when properly maintained, are designed to remain in service for 
decades. Scheduled maintenance of these ships and aircraft and 
the associated training and certification of our crews between 
deployments is a key element of the cost to own and operate the 
fleet. Our readiness models are designed to accurately reflect 
the cost to own, train, and operate our naval forces.
    The readiness models account for each phase of the Fleet 
Response Plan and are integral to our readiness funding 
decisions. Readiness is a function of capable forces of 
sufficient capacity ready for tasking.
    The return on investment in our fleet readiness program is 
measured by our ability to deliver required capabilities in 
rotational deployments while simultaneously responding to 
emergent needs of the COCOMs. Our models provide the fidelity 
necessary to accurately define required resources and predict 
readiness capacity based on varying financial resource levels.
    Thank you for your unwavering support and commitment to our 
sailors, Navy civilians, and their families, for all you do to 
make our Navy an effective and enduring global force for good. 
I look forward to your questions.
    [The prepared statement of Admiral Burke can be found in 
the Appendix on page 39.]
    Mr. Ortiz. Thank you, sir.
    Major General Layfield.

  STATEMENT OF MAJ. GEN. STEPHEN R. LAYFIELD, USA, DIRECTOR, 
JOINT TRAINING AND JOINT WARFIGHTING CENTER, U.S. JOINT FORCES 
                            COMMAND

    General Layfield. Chairman Ortiz, Ranking Member Forbes, 
other members of the subcommittee, on behalf of General James 
Mattis, the commander of the United States Joint Forces 
Command, thank you for allowing me to appear before you today. 
The preparation and readiness of the men and women of our 
nation's armed forces is our top priority. Since this task 
cannot be overstated we want to thank this subcommittee and the 
United States Congress for all your continued support for our 
warfighters and their families.
    My opening remarks will be short. Therefore, I respectfully 
ask to submit a more detailed written statement to you for 
placement in the record and look forward to more detailed 
questions and answers.
    Mr. Ortiz. No objection. It will be placed in the record.
    General Layfield. Thank you, sir.
    My testimony will address three areas. First, the key role 
that modeling and simulation plays as a training enabler: We 
use modeling and simulation to replicate the equipment that we 
have and the environment where our joint forces will operate. 
This replication is called the synthetic training environment, 
or the synthetic battlespace.
    We do this through a federation of models and simulations 
composed of joint and service systems and softwares that is 
integrated and distributed by Joint Forces Command. The result: 
the synthetic battlespace.
    A computer-generated model of forces, infrastructure, 
weapons systems, and physical terrain, when run together, will 
simulate the real world of challenging scenarios that our 
warfighters face every day. This synthetic environment supports 
exercises across all of our combatant commands and delivers 
specific mission rehearsal exercises in support of our forces 
in Iraq, Afghanistan, and the Horn of Africa.
    Most of these exercises integrate coalition and interagency 
participation. This synthetic battlespace also supports over 
200 service-led exercises by replicating the joint environment 
inside their scenarios.
    Additionally, we are supported by the services--we are 
supporting the services by assisting in the development of 
models and simulations for individual training applications 
which can be used at home stations and at home on the Internet.
    The second area that I would like to highlight today is the 
direct and the indirect cost savings to be gained through the 
use of modeling and simulation. Modeling and simulation allows 
us to replicate selected training, conduct it virtually instead 
of live, thereby reducing overall costs, personnel OPTEMPO 
[operating tempo], and wear and tear on our expensive 
equipment.
    An example of this with the Navy can be seen when training 
the Joint and the Fleet Headquarters staffs within their fleet 
synthetic training program. This staff training, which has 
traditionally taken place during expensive, full-scale, at-sea 
exercises, can now be conducted effectively and efficiently 
pier-side at a significant cost savings.
    Another efficient use of modeling and simulation is when 
the training can be distributed and delivered to the training 
audience right at home. This saves travel costs, equipment, 
transportation costs, and affords members--servicemembers--more 
at-home time with their families. We also use simulations to 
create complex operating environments which are cost-
prohibitive to replicate in a live training venue.
    My final point today has to do with the training of our 
close combat infantry and ground units--specifically the role 
of immersive training venues enabled by modeling and 
simulation. Throughout history infantry and ground units have 
suffered the large majority of combat casualties. The same is 
true today in Iraq and Afghanistan.
    Research shows that these casualties often occur in the 
unit's initial firefights. Yet, we have not developed a 
realistic immersive simulation for ground units to prepare 
troops for their first engagements with the enemy. The time is 
now to bring state-of-the-art simulation to infantry and other 
ground units.
    To this end, working with the services, the Office of the 
Secretary of Defense [OSD], and the Joint Staff, we have 
delivered a prototype infantry immersive training system to the 
Marine Corps and the United States Army to expose the realm of 
the possible for infantry immersive training, and it is 
yielding positive results. We have a demonstration of this 
system for your viewing in the atrium--outside in the anteroom.
    Additionally, the Deputy Secretary of Defense has budgeted 
$285 million in fiscal years 2011 to 2015 to the services and 
the United States Joint Forces Command to support the urgent 
development of infantry immersive training capabilities through 
the advancement of close combat infantry immersive training 
simulations.
    In summary, I would like to thank you, Chairman Ortiz, and 
the members of this committee for the opportunity to discuss 
United States Joint Forces Command's efforts in the area of 
modeling and simulation, and I would very much, again, 
especially like to thank you for your deep support and your 
sincere commitment to our soldiers, our sailors, our airmen, 
and Marines, and our civilians in this fight. Thank you very 
much.
    [The prepared statement of General Layfield can be found in 
the Appendix on page 74.]
    Mr. Ortiz. Thank you, sir.
    General Gibson.

   STATEMENT OF MAJ. GEN. MARKE F. GIBSON, USAF, DIRECTOR OF 
  OPERATIONS, DEPUTY CHIEF OF STAFF FOR OPERATIONS, PLANS AND 
           REQUIREMENTS, HEADQUARTERS U.S. AIR FORCE

    General Gibson. Yes, sir.
    Chairman Ortiz and Taylor, Ranking Members Forbes and 
Bishop, and other distinguished members of the committee, thank 
you for this opportunity to address the committee regarding 
your Air Force's modeling and simulation programs.
    Today's Air Force operates in a complex, post-9/11 
battlespace that extended the scope of our mission beyond air 
and space into emerging operating environments, such as 
cyberspace. The trend towards linking weapons systems across 
the domains of air, land, sea, and space, creates a challenging 
need for effective individual and collective training for our 
warfighters.
    Modeling and simulation are powerful tools to expose our 
forces to the complexities and uncertainties of combat before 
ever stepping into harm's way. As we look to the future with 
our fifth generation weapons systems, such as the F-22 and F-
35, or in space--or in cyberspace operations, simulation will 
offer the best, and in many cases the only opportunity to 
train.
    As we continue to operate in a resource-constrained 
environment we realize we must strike a balance between the 
cost and capabilities of simulation and of live-fly events. Yet 
it is clear that maintaining the readiness of today's Air Force 
requires the flexible, adaptive, and repetitive training 
capabilities that simulation offers.
    We increasingly turn to modeling and simulation to meet the 
challenge of both efficient and cost-effective training. Our 
goal is to produce the most effective and proficient 
warfighters in the shortest amount of time.
    Your Air Force has a long history of using simulation, 
beginning all the way back with the Link Trainer in World War 
II. Now we utilize simulation systems to conduct operations 
analysis; weapons systems tests and evaluation; command and 
control at the tactical, operation, and even strategic levels 
of command. We are working to build simulation capabilities 
that can operate across networks to integrate training in all 
of our core warfighting capabilities with those of our sister 
services and of our coalition and allied friends.
    Today we use simulation to improve training in every type 
of mission. For over a decade we have championed the use of 
live, virtual, constructive training technologies to conduct 
distributed mission operations that connect geographically-
separated units into a common operating environment.
    Let me take a moment to discuss what we mean by live, 
virtual, and constructive, or LVC. Live training is what we are 
all familiar with--actual airmen operating their equipment and 
aircraft in a real environment.
    Virtual training are those same airmen operating in a 
simulated aircraft in the virtual environment. A basic flight 
simulator connected to a virtual environment would be one 
example. Constructive training adds computer-generated inputs 
to the virtual environment, such as a generated threat that 
would make you react.
    Today's high-fidelity simulators offer tremendous 
possibilities to present high-threat environments and to 
rehearse specific mission events, or even entire missions. 
However, these high-fidelity systems require significant 
investment to be those effective training tools, and it must be 
kept in mind that simulation is not really meant to replace 
live training, but to complement it, and in most cases, to make 
our live training even more effective.
    But in many scenarios simulation is the only way we can 
adequately train our airmen. For example, space and cyberspace 
training events rely almost solely on simulation. Furthermore, 
we have been using theater- and operation-level command and 
control simulations to train with our sister service components 
and joint warfighters for decades now, and now simulation has 
become a key component for training our fifth generation pilots 
in the F-22 and the F-35.
    In conclusion, your Air Force and its combat-ready airmen 
remain focused on the mission: supporting ongoing operations 
and ensuring the continued security of our great nation. 
Modeling and simulation is and will continue to be critical to 
building and training a proficient and adaptive force.
    I thank the committee for its shared commitment to our 
national defense and for this opportunity to appear before you 
today.
    [The prepared statement of General Gibson can be found in 
the Appendix on page 82.]
    Mr. Ortiz. Thank you, sir.
    Admiral Lewis.

 STATEMENT OF REAR ADM. FRED L. LEWIS, USN (RET.), PRESIDENT, 
          NATIONAL TRAINING AND SIMULATION ASSOCIATION

    Admiral Lewis. Mr. Chairman, members of the committee, it 
is a pleasure for me to appear to before you today to discuss 
one of America's most exciting and promising enterprises, the 
modeling and simulation and training industry. I have been the 
president of the National Training and Simulation Association 
[NTSA] now for 15 years, and NTSA is this country's premier 
organization dedicated to furthering the growth and health of 
this critical national asset.
    Let me start by saying that simulation technologies are 
revolutionizing how we learn. In areas such as disaster 
response, emergency medicine, cultural interaction, military 
and law enforcement, advanced surgical procedures, and 
predictions about complex weather systems, modeling and 
simulation are enabling us to prepare more quickly, more 
effectively, and with far greater flexibility than ever before.
    Gone are the days when we learned from texts and then 
plunged headlong into the complexities of dangerous and high-
risk real-world situations. Now we train in virtual 
environments that uncannily replicate those we will face in 
combat, in terrorist attacks, and in the emergency operating 
room.
    In the last few years we have begun a journey into virtual 
worlds that don't just promise to blur the distinction between 
simulation and reality; they will soon actually remove it. The 
National Training and Simulation Association promotes the 
growth and use of modeling and simulation technologies through 
a wide variety of activities, including scholarships, 
certification programs, sponsorship of extensive research, and 
annual events such as the recently-concluded Congressional 
Modeling and Simulation Expo, held in the Rayburn office 
building, with the close collaboration of the Congressional 
Modeling and Simulation Caucus, with which we enjoy an active 
and productive relationship.
    Our flagship activity is, of course, the annual 
Interservice Training Simulation and Education Conference, 
ITSEC, held annually in the late fall in Orlando, Florida. This 
event, which, like the industry as a whole, is enjoying healthy 
growth despite an uncertain overall economy and now attracts 
well over 500 corporations, government and research 
organizations from around the United States and from over 60 
countries around the globe.
    Over 100 research and scientific papers are presented and 
discussed, making ITSEC not only the world's largest exhibition 
of modeling and simulation technology, but also the world's 
most important annual focal point for advancement of these 
technologies. With over half a million square feet of exhibit 
space showcasing an amazing panoply of modeling and simulation, 
ITSEC is truly a phenomenal sight, and as an American I take 
great pride in seeing this evidence of how vibrant and creative 
this sector of our economy is and what great promise it holds 
for the future.
    During my time at NTSA I have seen the modeling and 
simulation industry not only grow exponentially, but undergo 
rapid and, in some cases, unexpected changed. The explosion in 
computer processing power, which began in the last decade and 
which is continuing unabated, has enabled simulation training 
to migrate from platform trainers where single individuals 
interact with single training devices, the so-called ``man-
machine interface,'' into a wide variety of immersive virtual 
environments, including those which link multiple actors into a 
unified training matrix.
    It is becoming clear that in the not-too-distant future we 
will train with avatars, wholly immersed in a three-dimensional 
alternative world. Creating such environments is, in fact, the 
next great technological challenge for our industry, but we are 
on the way to getting there.
    With it, among other precedent-setting applications, we 
will be able to immerse our warfighters in new and unfamiliar 
cultures, allowing them to learn by doing, by living in a 
virtual Afghan village, for example. I don't believe this level 
of technology will be achieved while we pursue our current 
objectives in Iraq and Afghanistan, but we will see it in the 
not-too-far future, and it will play an invaluable role in many 
critical areas of national importance.
    As to today's modeling and simulation industry, I would 
like to underscore not only that it is important to a wide 
variety of different domains, but also the flexibility and the 
agility of our industry to respond to changing requirements 
based on changes in the threat environment. A good example of 
that responsiveness was the development in Orlando--the 
deployment--and deployment to Iraq in six months of a convoy 
tactics trainer. Our industry had quickly and effectively 
answered a critical battlefield requirement to train our 
soldiers and Marines how to react if attacked while en route in 
a convoy of trucks and/or other vehicles.
    My confidence in the modeling and simulation industry's 
technological capabilities is unshakeable, and based on the 
solid evidence of creativity and innovation that I have 
attempted to briefly outline today. Against this promising 
background, however, we face two challenges that each, in very 
different ways, threaten to hinder what otherwise would be 
further dramatic progress.
    The first is a bureaucratic obstacle that can be removed; I 
am convinced, with concentrated action by all interested 
parties. Specifically, the Economic Classification Policy 
Committee of the Office of Management and Budget has rejected 
for the third time in eight years our applications for granting 
unique industrial classification codes for modeling and 
simulation. As we have stated in our request, granting such 
stature would not only bestow deserved formal status and 
recognition of our industry, but would also greatly facilitate 
tracking of economic data pertaining to modeling and 
simulation, which at present is an elusive goal.
    While we have some economic data for certain geographic 
areas where the simulation industry enjoys a pervasive 
presence--for example, in Orlando, Florida, or in the Hampton 
Roads area of Virginia--we have no unified picture of the 
industry's overall contribution to the health of the American 
economy, although we know intuitively that it is considerable 
and growing rapidly. We intend to vigorously challenge this 
ruling and call on those with an interest in furthering the 
growth of the modeling and simulation community of practice to 
join us in that activity.
    The second challenge facing our industry is of a more 
fundamental nature. For a number of years alarm bells have been 
alerting us to the widening gap between the United States and 
most other developed countries in the science and technology 
skills of our young citizens. Studies equating our achievement 
levels to those of some less-developed countries and indicating 
that we have made no improvements in our standings in the--
around the globe since 1990 have begun to focus public and 
private organizations upon the urgent need to rekindle student 
interest in the hard sciences and to strengthen technology 
teaching in the classroom.
    But raising awareness of the seriousness of our 
shortcomings may prove the easier task. Ahead of us lies the 
challenge of creating a sense of excitement and enthusiasm 
among our youth about the promise that technology and its 
opportunities offer for a lifetime of achievement and personal 
reward, just as demanding as the need to provide enhanced 
instruction and a clear, viable path for classrooms to careers.
    President Kennedy's challenge to reach the moon by the end 
of the 1960s motivated several generations of Americans to 
great achievement in science and engineering. What we now need 
in the 21st century is a similar challenge, and I believe that 
modeling and simulation can be a key to that excitement.
    Perhaps no other industry is more dependent on a reliable 
supply of first-class scientists and engineers than the 
modeling and simulation community. At the same time, modeling 
and simulation enjoys a built-in advantage in that young people 
have surrounded themselves with variations of simulation 
technology. Video games in particular are a type of virtual 
simulation, and in fact, serious games based on video game 
technology are an increasingly important component of the 
overall simulation training picture.
    But even with that kind of stimulation of the younger 
generation our downward trend continues. We at NTSA have 
engaged in several efforts to try to reverse the trend, and 
while worthwhile and successful, they are only fractural and 
affect only the margins.
    We must do more to enhance science, technology, 
engineering, and mathematics education--STEM education--across 
the nation. If we do not then we will continue to see our 
American leadership in technology erode as other nations 
eagerly assume the leadership position previously held by us.
    There are challenges ahead for my community, but in the 
exciting and dynamic world of modeling and simulation the way 
ahead is lit with the promise of being able to address our 
nation's most vexing problems.
    Sir, I thank you for this opportunity to appear before you 
today, and I look forward to your questions.
    [The prepared statement of Admiral Lewis can be found in 
the Appendix on page 91.]
    Mr. Ortiz. Thank you so much.
    We have had some very good testimony this morning. And I am 
going to ask the--all the panel here a question, and maybe each 
one of you can try to answer the best that you can.
    In your opinion, what is the proper balance between the use 
of simulated training and real-world or live training, and what 
criteria are used to evaluate to achieve that balance? And of 
course, if I understand correctly, the equipment that I saw 
back here is being--is not being used now; it is a prototype. I 
mean, once you do that if you can give me a description--do you 
get used to either one of the live training or the simulated 
training? Maybe you can help me understand some of this.
    General Layfield. Thank you, sir. I will take the first 
stab at that question.
    Without question a balance of all the venues of training, 
live or simulated, is a key component of the total force 
readiness. All of our services apply great rigor to finding 
that balance and making sure that we have the most effective 
mix of combination of training venues.
    Outside you are watching what is a modeling and simulation 
venue. It is not intended to replace live at all; it is 
intended to enhance live training and to enhance the readiness 
of that small unit that has experienced that--experiencing that 
venue.
    Mr. Ortiz. Anybody else like to give it a try?
    General Gibson. Congressman Ortiz, I think in each scenario 
there are several variables that one would have to consider, 
given my experience in aviation, especially in the air side. 
One is the type of mission that you are trying to replicate, 
and then offsetting that with the ability both of the 
simulation and the investment and whether you can achieve a 
high-fidelity simulator that will do a good job of replicating 
that live flying activity, or command and control activity, or 
whatever it is you are trying to pursue.
    Where we have seen that sometimes begin to drift is 
requiring that simulator or simulation to continue to keep a 
pace of the aircraft upgrades and things of that nature. As 
soon as those two begin to break apart you encounter what we 
call ``negative training.'' In other words, the pilots and the 
operators know what it is like in the actual aircraft and if 
they go so something that doesn't accurately replicate that it 
becomes problematic. So there is an investment aspect to this 
and a technology aspect of keeping those two joined very 
closely.
    In the end, I think each system has its own balance. Based 
on that and the scenario and what you are trying to do I think 
simulation is fantastic in its ability to stop and start again 
from an instructional value. You don't have to waste an entire 
sortie or mission to come back and talk about what happened; 
you have the ability to interrupt and instruct and correct 
right then and there, while it is effective.
    But in the end, certainly some of the live flying or live 
activity has to take place because ultimately that is where the 
confidence is built in that system before you have to employ it 
for real.
    Admiral Burke. Mr. Chairman, I think I would agree with 
what has been said up until this point. I think there is--when 
you think about simulation there are essentially three things 
that occur. You can fully simulate some of the things that you 
are required to do and you can get full credit, if you will, 
for that simulation.
    There are other things that you can simulate that you may 
want to do in the actual platform. But you can get to a level 
of proficiency faster by doing the simulator, and more cheaply.
    And then there are certain things that the simulators just 
don't lend themselves to yet at this point, and those are some 
of the more complex evolutions. You know, we haven't figured 
out how to fully simulate a ship yet, or multiple aircraft 
flying together--you know, flying close to one another. That 
has got a pucker factor in the real world that you may not get 
in the simulator.
    We also need to recognize that the simulators are growing 
in capability every year, so what was--what we weren't able to 
do last year we might be able to do this year. So as we improve 
the fidelity of those simulators we can do more in them.
    And then the last thing I would like to say is--to follow 
on what Marke said--is the--it is critical that we upgrade the 
simulators. Now, I am a submariner, and the way we have done 
this in my career is we bought the simulator up front and we 
made a commitment to upgrade the software when we upgraded the 
ship, so what that allowed us to do was continue to train on 
that simulator and not get that negative training that the 
general mentioned. However, that is a challenge because we are 
taking away money from something else to upgrade those.
    Admiral Lewis. Mr. Chairman, just let me add one final 
comment or thought to what you have heard from the--my 
distinguished colleagues here, and that is that the mix and the 
balance depends on the scenario, depends on the piece of 
equipment that you are trying to train an individual on.
    The classic example, of course, is the Apollo program, and 
for the air crew, or the astronauts who operated a lunar 
module. They only had an opportunity to train in a simulator 
before they actually did the real evolution, so that is kind of 
one end of the spectrum.
    At the other end of the spectrum is the more routine kinds 
of scenarios, situations, operations that you might have to 
engage in when you are operating that piece of equipment--an 
airplane, a ship, or a submarine--you can easily train people 
on simulators in that regard.
    So the Gordian's Knot of training and simulation is the 
question that you just asked, and that is, ``What is the 
balance?'' It depends on the equipment; it depends on the risk 
involved in operating that piece of equipment and the kind of 
environment in which you are going to operate; it also depends 
on the requirements that each individual service and the joint 
community has for operation of that equipment and those units 
who are employing those equipments.
    Mr. Ortiz. I am just going to ask one short question before 
I pass it to my good friend, Mr. Forbes.
    The candidates, the crew that utilize the simulators--do 
you have some of them who might have a problem adapting or 
learning? Do they fail, or are most of the people that use it--
most of the crew members, or the soldiers, or sailors, or 
Marines that use it--do they all pass with flying colors or do 
you have problems with them?
    Admiral Lewis. Mr. Chairman, can I give a non-military 
example of--in response to your question? And that is the--you 
know, simulation is used not only in the military case, but 
also there are hundreds of applications for utilizing 
simulators in the private sector, one of which is in the health 
care field.
    So one classic simulation in the scenario equipment that is 
being used in medical schools around the country and hospitals 
around the country are the operating room environment, which 
can be simulated with a simulated patient. So the operating 
team can come in, do the procedure, the mannequin is hooked up 
to life-cycle, life signs monitoring equipment and so forth, 
and they can, you know, apply the medications that are required 
for a specific case, and if they are successful the mannequin 
survives, and if they are unsuccessful then the mannequin dies. 
But better on the mannequin than on you or me, I say.
    But the beauty of it all is that they can step back away 
from that and the whole scenario can be replayed with the 
participants observing what had transpired during the execution 
of the procedures that they had just used to try to assist that 
patient. So it is--not necessarily do they--once they go 
through the procedure do they get an upcheck. If they fail they 
can fall back and relearn, so that is the beauty of the 
simulated environment.
    Mr. Ortiz. The reason I ask is because in war you die one 
time; in politics you die many times.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all of you, gentlemen, for your expertise and 
being here today, and I will try to ask each one of you a 
question and then pass it on to my colleagues, and maybe come 
back if we have additional time.
    But, Admiral Burke, if I could start with you just because 
of where you are on the podium there--we know that some recent 
studies have at least placed into question some of the Navy's 
readiness modeling and financial--don't want to address that 
now, but my question for you is this: How do you feel the 
current financial models used by the Department of Defense 
compare to corporate America? Specifically, do you believe they 
rival the corporate models in sophistication and accuracy or do 
you believe that there may be room to improve upon these 
models?
    And I know all of you were being brief in your testimony, 
but I read your written testimony and one of the statements 
that you mention in there, it says, ``All models meet an 
industry standard of less than 5 percent error acceptance 
level.'' What industry are we comparing that to for that?
    Admiral Burke. Thanks for the question, sir. I think, first 
of all, we go through a rigorous verification, validation, and 
accreditation process, and that--we have a team within the Navy 
staff that works in the model area and does this, but also we 
get help from outside folks--Johns Hopkins APL. And Johns 
Hopkins is in the business of--or, they have a team that is in 
the business of doing this across industry.
    And so the standard is essentially that your assumptions 
are well-documented, the model results are stable, and there is 
a correlation between the input and the output. And the 
standard is five--less than 5 percent.
    Now, as far as what DOD is doing to do their modeling, I am 
not specifically sure----
    Mr. Forbes. Address the Navy, then, if you would like.
    Admiral Burke. Yes, sir. But in the case of the Navy, 
essentially what we are doing is taking a complex set of inputs 
and putting that input into databases and spreadsheets to 
relate that to a cost output. So if you want to say--if you 
want to take the fleet readiness program and say, ``Here is 
what we need,'' then we can easily relate that to cost.
    Am I getting near what you are looking for or am I missing 
your----
    Mr. Forbes. You are, and let me try one more stab at it, 
because one, I appreciate what you are doing and we truly are--
we are here trying to help jointly and cooperatively getting to 
the goal that we want. One of the things in this subcommittee 
and in our full committee that I know the chairman is 
constantly grappling with is, we have proposals that come to us 
where we are given option A, but it is very difficult for us to 
say if we pick option A that means we take B, C, and D off the 
board, and we are constantly trying to get our arms around that 
so that we can ask those questions so we are intelligently 
making decisions that help the defense of the country.
    And sometimes we can get all the accreditations in the 
world, all the check-offs in the world, but if they are not 
answering the questions or they are not reaching the goals and 
we are still off it hasn't done us much good. So my question--
not critical at all, it is simply groping for, forgetting the 
accreditations and the check-offs that we all do so that we 
kind of protect ourselves in saying we have done everything we 
needed to do--in your experience, when you compare what we are 
doing with the Navy or the Department of Defense how do they 
stack up in comparison to the models that the private sector is 
using?
    Are they reaching as good of results? Are they as 
predictive? And secondly, when we say they have got to be 
within five percent of the industry, what industry are we 
basing that on?
    Admiral Burke. Sir, let me take the last part first. The 
five percent is we look at what the model predicted versus what 
actually occurred, so we go back and look at that. So that is 
how you get to the five percent. The five percent is the 
industry standard for full accreditation of the model. We just 
happen----
    Mr. Forbes. Okay.
    Admiral Burke [continuing]. So both of those come together.
    Mr. Forbes. Okay.
    Admiral Burke. Now, what we used to do is we used to say, 
``What did we do last year,'' so that is probably good enough 
for this year. I don't know that there is a--I don't know that 
we--there is an industry that would compare to what we do and I 
don't know that we have tried to do that, but I will go back 
and look at that and figure out how we would compare ourselves 
to industry, sir.
    Mr. Forbes. And then, Admiral, any suggestions you have 
about what we can do to help you do that we would really 
appreciate as a committee, because we want to do that.
    Admiral Burke. Yes, sir.
    Mr. Forbes. General Layfield, Chairman asked a very good 
question about balance between live and virtual training, but 
General Mattis has been a leader in this area. It is a crucial 
speech I heard him give about the amount of lives that we can 
save for people in the infantry, because as I recall his 
speech, which I heard him deliver, he mentioned the fact that 
the infantry was taking the brunt of the casualties and that if 
he could narrow that learning curve down months that he could 
save a number of lives and he felt that modeling and simulation 
was the key to narrowing that down.
    If I have misstated that in any way please correct me, but 
if that is close to accurate would you tell us and explain the 
essence of what he was saying and how we might be able to do 
more with modeling and simulation to save those lives in the 
field?
    General Layfield. Congressman, that is very clear, and I 
agree with you completely with General Mattis' comments and the 
intent of the message he was trying to portray, which is one of 
our keen focuses at Joint Forces Command, is to try and build 
an exercise regime, a scenario, an immersive venue for all of 
our warfighters so that their very first fight is really no 
worse than their last practice, their last rehearsal. Using 
modeling and simulations is a great way to enable that.
    Out here in the anteroom we have a demonstration of the 
exact same thing. On that video--and this is a quote; I would 
like to read it to you to bring home the point of how valuable 
bringing home an immersive environment to the ground unit, 
specifically our great Marines right now and our great Army and 
all of our ground forces to help them actually get through that 
first firefight and make it really be no worse than their last 
practice.
    And this is a quote from Sergeant Jose McFadden, from the 
29th Infantry, out of Virginia, and recently back from theater, 
and he said when he tried on this equipment, ``I got caught up 
in the heat of the moment a lot of the time,'' referring to his 
experience in the machine there. ``It certainly felt like I was 
back in theater.''
    Now, that is what we are after. We are after an immersion 
simulation capability that allows our great military to 
experience combat and all the stresses of that before they have 
to actually do it.
    So thank you, Congressman.
    Mr. Forbes. And, General, again, if I am understanding 
General Mattis, we have a disproportionate number of casualties 
that take place in that initial deployment situation when that 
training is not where we would like for it to be, let's say. By 
reducing that down General Mattis believes that we can save a 
number of lives and a number of casualties, and feels that 
modeling simulation and the immersion training that you are 
talking about could be a major assistance in doing that. Is 
that a fair statement?
    General Layfield. Yes, Congressman, that is fair.
    Mr. Forbes. Good.
    General Gibson, one of the things that we know that you 
mentioned is that we can get there faster and cheaper with 
modeling and simulation, but one of the other things that I was 
really looking for is, how are we using modeling and simulation 
for structural models? I mean, I know we had a concern with our 
F-15s not too long ago, the cracks on the longerons. When we 
first built those planes we didn't have modeling and simulation 
like we have today.
    Do we have adequate structural models for, like the F-22, 
the F-35? And secondly, how can we use modeling and simulation 
to go back on some of our legacy systems and really extrapolate 
and look and predict models that--or problems that could be 
caused by the OPTEMPO that we have put some of those units 
through?
    General Gibson. Yes, sir. I wouldn't say that modeling and 
simulation is my core competency, but by serendipity I was at 
the Fort Worth plant for the F-35 last week on a visit--the 
simulator--and I know that they use modeling of their 
structures extensively there to make predictions. Obviously 
that aircraft is built for all the services and will be exposed 
to a number of environments, and they walked me through that 
process. And in fact, that is being borne out in many of their 
follow-on flight evals.
    As far as going back to previous aircraft, I am not 
familiar with a lot of that. I know that there is great 
interest because we have flown a number of our--what we would 
call major combat operations--MCO--aircraft in this 
counterinsurgency fight and used up a lot of flying hours and a 
lot of flying time, and we are still somewhat uncertain on what 
that is--what toll that is taking on those air frames.
    I saw some analysis the other day about--on the A-10s 
specifically, how much did we think we are consuming them, 
essentially, over the predicted rate that we had before. So I 
can take that for the record, Congressman. I don't have the 
specifics with me but I know there is a concern to go----
    Mr. Forbes. If you would just please get us back that 
information, because we want to help you with that. That could 
be a huge benefit for us to do.
    General Gibson. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Forbes. Last thing: General Lewis, take us into 
tomorrow land. What can modeling and simulation do for us? 
Because you are where the rubber meets the road on both the 
policy aspect and also what is out there, but show us tomorrow. 
If we are smart enough to be able to use modeling and 
simulation how could it help us in dealing with emergency 
situations? How can it take these ideas people have across 
America?
    And then also, what kind of magnet is modeling and 
simulation to encourage people to go into math and science, 
which is one of the big concerns that you mentioned?
    Admiral Lewis. Thank you, Congressman. I alluded to a bit 
of what the future might look like in my testimony--earlier 
testimony--but to amplify just a little bit, Congressman Ortiz 
mentioned the fact about the picture--or I am sorry; that was 
you, sir--talked about the phones with the photographs and the 
pictures, and so forth. It wasn't too long ago when there was a 
television series called Star Trek, starred Leonard Nimoy, Dr. 
Spock, and that whole crew. And if you will recall, when they 
are on another world they reach into their pockets and they 
flip out a little device and click it open, and that was their 
communicator to talk to the Starship Enterprise.
    Well, that was really quite something back then to imagine 
a world wherein you could be able to talk to somebody that 
quickly and that easily, and then what do we have today, 
probably each one of us in our pockets? Our BlackBerry, or our 
cell phones, or whatever.
    Another piece of Star Trek of the time--and this is, again, 
something I alluded to in my remarks--another piece of that 
particular--that show--and those people who wrote that script 
were true visionaries, absolutely incredible. But a part of the 
Starship Enterprise--one space, one compartment on that ship--
was called the Holodeck, and the Holodeck was a space that was 
empty to someone who just happened to walk by it, but once you 
entered it and the doors closed and you would say, computer, 
take me to whatever place in the world, or whatever planet, or 
whatever time that you wanted to be inserted, and suddenly that 
whole environment would appear.
    Now, just imagine what you have out here in the anteroom or 
we have seen demonstrated elsewhere, wherein you see a 
different world through glasses, through goggles, through 
something you put over your eyes, and this imaginary world is 
portrayed for you, and you operate in that environment, 
submersive kind of training that we are talking about, and we 
are about ready to really march forward with that in the M&S 
industry.
    It is not too much of a stretch to think that if you have 
that world here right now, just in goggles and glasses, before 
your eyes to take it out a few feet ahead of you, around you, 
to surround you in that virtual environment. Not too stretch of 
the imagination to think that that can happen. And I would say 
that I have heard estimates that we would have that kind of a 
capability not soon, but in certainly the next 25 or 30, 35 
years, we would have the ability to totally immerse an 
individual in a virtual environment, in a virtual world, 
surrounded by avatars and operating in a place wherever you 
might think you would like to be and whatever kind of condition 
or threat environment that is there for you.
    In terms of communicating that kind of a message, that 
excitement--and I hope a little bit of my excitement about this 
technology has come through in my remarks, because I am very 
excited about the opportunities that are ahead for us--but I 
personally want to try to communicate that excitement to the 
young people in our country, to the youngsters, the children in 
grade school, and middle school, and high school, to excite 
them about the opportunities ahead if they would become 
interested in math, and science, and engineering, and pursue 
careers in those fields.
    We see that happen, to some extent, at the big event that 
we have at the end of each year down at ITSEC, where we invite 
students from all over the Central Florida region, we invite 
teachers from all over the country to come to visit us to--
science teachers, math teachers--to visit us to see the kinds 
of technology that we have displayed on the floor and the kinds 
of bells and whistles that they are able to experience 
firsthand.
    The interesting thing about the technology that we operate 
in on a day-to-day basis is that it changes. It is dynamic; it 
improves; it gets better every single day, every single year. 
As I reflect on my time at ITSEC and in this community I have 
seen the change from almost a 90 to 100 percent focus on very 
high-end simulators for aircraft, and training air crew, and so 
forth, but over time--over the last 10 or 15 years--we have 
seen that change based on the threat--the environment in which 
our forces, our troops are operating and where we are around 
the globe.
    It changes, it evolves, it shifts in a particular 
direction. We are in the direction now of we have gone from the 
convoy tactics training that I talked about to the Humvee [High 
Mobility Multipurpose Wheeled Vehicle] upset trainer that has 
been developed for our troops, and now we are moving into the 
immersive piece.
    And the technology is maturing, it is getting better, and 
we will be able to answer the kinds of challenge that senior 
leaders like General Mattis have set out for our industry. The 
people are there; the creativity is there; and the motivation 
is there to address those kinds of problems.
    Mr. Forbes. Admiral, thank you.
    Thank all of--and, Mr. Chairman, just as I yield back the 
balance of my time, we will go there. The question is whether 
we get there first or we get there second.
    And just to lay out the importance of what you all are 
doing, one of the experts that I know that speaks on modeling 
and simulation around the world, whenever he goes to any 
country, including the United States, he will have an average 
of about 200, 250 people that show up to listen to him talk. 
When he went to China to speak he had 5,000 engineers that 
showed up to listen to him and he said they were asking cutting 
edge questions, working on cutting edge technologies.
    We cannot afford to be second. We have got to be first.
    And, Mr. Chairman, thank you for leading the charge on 
this, and I yield back the balance of my time.
    Mr. Ortiz. Thank you so much.
    We have several members here and we will try to stick to 
the 5-minute rule so that everybody--and if necessary, we will 
have a second round.
    Mr. Heinrich.
    Mr. Heinrich. Thank you very much, Mr. Chairman.
    And thank all of you for joining us today. I am lucky 
enough to have the Air Force's Distributed Mission Operations 
Center in my district, which I didn't know a great deal about 
before I was elected to Congress. I actually used to work on 
Kirtland Air Force Base. I am a mechanical engineer by 
training. But I was pretty amazed when I saw what they are 
doing out there.
    And it speaks to some of what you were talking about about 
pulling people together to work in a virtual environment at the 
same time. And I pulled up a little article on their Virtual 
Flag exercises, where--one of which included 617 warfighters 
in--working together in a virtual battlespace at the same time 
across a couple dozen weapons systems, 61 different distributed 
units, and I think that that is one of the things, as we move 
forward, that we need to understand and plan for, is how do we 
make sure that the various different simulation platforms don't 
work just in isolation of themselves, but work together so that 
we can have these more complex simulations as we move forward, 
where numerous different people--you know, one--people on the 
ground, to somebody flying an HH-60, to somebody in a tanker, 
to a CV-22, all can sort of participate in a battlespace 
exercise together.
    How are we planning to make sure that as we move forward we 
plan ahead of time to make sure that those pieces can talk to 
each other and work together in a simulated battlespace?
    General Gibson. Sir, I will take that one quickly. You are 
right: The Virtual Flag exercise intended to complement the 
former fairly famous Red Flag exercise, Green Flags, and others 
that were live-fly events for training--now we try to 
accomplish most of those training events in a virtual 
environment and it helps us not only in those systems but to 
achieve what we call cross-domain integration, now we bring 
space, and cyber, and the other domains in and learn a little 
bit more about those relationships.
    To your question specifically, we continue to be challenged 
on making sure that everybody can ``plug into the network.'' 
There are two--really kind of three dimensions of that. One is 
that system has to be able to come on to the network. That 
system, as you acquire that, very rapidly then becomes dated, 
where the DMO [Distributed Missions Operations] network 
software and connectivity moves ahead.
    We are already--I, again, mentioned I talked--was at Fort 
Worth last week. I talked to them yesterday about the F-35 
simulator and its ability because we had some challenges with 
the F-22 and its ability to plug into the DMOC [Distributed 
Missions Operations Center] or the DTOC [Distributed Training 
Operations Center] that the reserve component runs.
    The second piece of that, though, besides U.S. with U.S. as 
you begin to plug in this network, and it is even more critical 
these days as we use most of our fifth generation capability to 
train there, is, frankly, security and how you have multiple 
levels of security and be able to operate in that environment, 
that you are--you know, everybody on the network can see what 
everybody else has and how you train in that coalition 
environment.
    So that is kind of the--that is the last plug, that you 
want to be able to operate in a joint environment with our 
sister services--obviously that is the way we are going to 
fight--but also, then, as we bring in other members. And the F-
35, as you know, is an international system, so how we are 
going to be able to do that in a multilevel security and make 
sure that we are able to protect those capabilities that we 
have.
    So it is the timeliness of what you buy that day and 
quickly begins to expire, and then also as you move out into 
the out years and capabilities are added, how those are brought 
onboard in a multilevel security concern. But we are aware of 
them, Congressman, and we try to work those very hard.
    Mr. Heinrich. Mr. Chairman, I will yield back.
    Mr. Ortiz. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here. This is a critically 
important subject. You know, I remember a quote that said 
something along the lines that in times of crisis we do not 
often rise to meet the occasion; we default to our level of 
preparation. And it seems like this is especially apropos to 
the whole subject today.
    And I really appreciate all of you, because if you do a 
good job, of course it makes our soldiers not only the most 
lethal but the most protected and safe on the battlefield, and 
it is always wonderful when you can have challenges or problems 
in the laboratory, as it were--in the environment where no one 
is getting hurt--than it is to actually have to learn those 
lessons on the battlefield.
    So I know that all of you know that this committee wants, 
as much as anything, to try to make sure that when our soldiers 
do have to go into theater that as many of them come home as 
safely as possible. And with that in mind I want to take a 
question up that our Ranking Member Forbes put forth, and that 
was having to do with our infantry.
    I know, General Layfield, that is always the most difficult 
situation when you have new infantry going into the field and 
don't have some of the battlefield awareness that some of the 
overheads might have there, that that is always an especially 
challenging environment. So I guess my first question to you 
is, how far off are we from having a state-of-the-art immersive 
infantry ground simulation system, and is the $285 million over 
the fiscal years 2011 to 2015--is that enough to field such a 
system?
    General Layfield. Let me take your first question first, 
Congressman. I agree with you that--completely--like was stated 
earlier, that we have to do all we can. The time is now to take 
an immersive venue to the ground fight.
    We are partnered heavily with our services, particularly 
very heavily with the United States Marine Corps, those great 
Marine fighters, and our United States Army ground soldiers out 
there, and all elements that are on the ground, to do just 
that, to make sure that they can survive and be successful in 
that very first firefight and not have to learn it on the fly. 
That is precisely what it is all about, sir, so I agree with 
you completely on that analogy.
    The requirements associated with that and how fast we can 
achieve that end are constantly under review. As we dialogue 
with the services, and work with them, and support their 
efforts in this venue, we definitely assess our requirements 
and we submit them to the Office of the Secretary of Defense, 
and those requirements are being met. We have adequate 
resources to pursue that, but I have to caveat that technology 
is advancing rapidly and we have to stay with the technology 
advances if not ahead of it. Thank you.
    Mr. Franks. Mr. Chairman, I read just recently where China 
now has surpassed the United States in the use of energy. You 
know, oftentimes there is a debate in this country as to, you 
know, this country uses too much energy per capita, but they 
forget that we produce more per capita per the amount of energy 
we use than just about anyone in the world. But it does seem to 
me a telling situation that the nation of China is now using 
more energy than we are, and that seems to translate into some 
of the discussion that we are having today, that China is going 
to rapidly advance in these areas.
    So, Vice Admiral Burke, my next question is for you. In 
light of the accreditation of the air crew model of 2008 and in 
the ship operations one in 2009, have you noticed--you know, 
one of the things that would help us so much in this 
committee--I wish there were more people here--but if we had 
hard evidence, hard research showing that when these young 
soldiers have gone through systems--simulation systems--that 
they come home in higher numbers, that they do better on the 
battlefield. Do you have any data that would show some 
appreciable improvement--readiness and effectiveness in those 
two areas, and in the lower casualty rates?
    Admiral Burke. Sir, in the readiness models essentially 
what we are doing is taking readiness requirements and 
translating that to cost. It sounds simple; it is pretty 
complex. But what we have been able to do with that is you can 
see where there may be growth in certain areas, and we have 
been able to get into those areas and look at them, as far as 
why is there growth, and maybe tamp that down, if possible.
    As far as our simulation efforts, I can't really say that 
we have figured out that we have saved people's lives in the 
ships and aircraft, although I have to believe that the pilots 
that fly the aircrafts--or, fly the aircraft--and the ship 
operators are far better than they would be without them. 
Fortunately, we have not had a lot of attacks against our 
aircraft or against our ships to know whether that is true.
    Mr. Franks. Mr. Chairman, I am going to yield back, but I 
hope that we can move forward, especially in this whole 
immersive infantry simulation, because it seems to me like that 
we could perhaps even gain some data that we could show the 
rest of the world that would be compelling.
    Thank you all very much.
    Mr. Ortiz. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Admiral Lewis, when you were commenting about Star Trek and 
describing, you know, the future that was predicted back then 
and exists now I found myself thinking the one thing I really 
want to be able to say from time to time is, ``Beam me up, 
Scotty,'' and so if you can just sort of hurry things along so 
that people like me are in a position to say, ``Beam me up, 
Scotty,'' and actually get out of the circumstances that we are 
in real quickly I would appreciate it.
    I wholeheartedly agree with what the chairman has said, Mr. 
Forbes has said. Research and development has been a critically 
important part of the edge that the United States has had 
militarily for decades. It is why, frankly, we are on top of 
the world. Nobody can come close to touching us right now.
    And this modeling and simulation is just part of that. I 
have just finished a lengthy essay on health care, which I 
published last week in the National Review Online. A challenge 
that we are all facing with regard to programs like this is 
funding--across DOD, across the government, across the country.
    And we are running up an awful lot of red ink. In this 
article I suggest that the principle problem with funding, with 
red ink, where health care is concerned is our third party 
payer system. And over the last year I have had lots of 
discussions with my colleagues, and I am just not able to sort 
of break through with my colleagues about the importance of 
looking at the impact, cost-wise, of comprehensive health 
insurance, and that model nationally, and what would be a 
better model, a different model.
    And in the article, frankly, one of the things that I say--
I use a couple of analogies. The best one that I can think of 
is splitting the tab for dinner, and I hypothesize the entire 
country every night going out and splitting the tab for dinner, 
and then I hypothesize--I just sort of wonder, well, what 
happens to the national economy and to individual wealth over 
time as a result of that?
    But I specifically call for modeling. I mean, modeling is 
the way you wind up getting to the bottom line where--well, at 
least narrowing the range of differences of opinion concerning 
how much waste, costs, superfluous expenditures there are in 
the health care system. And if we don't do that we are going to 
be really challenged to fund appropriate research and 
development modeling simulation.
    Interesting, I walked in here--I am sorry I am late; I was 
doing a missile defense talk and came in and heard the last 
little bit about medical modeling. I have made a request for 
funding for medical simulation, trauma simulation, teaming up 
with Georgia National Guard and the Medical Center of Central 
Georgia, one of the very few tier-one trauma hospitals in 
Georgia, to use simulation as a mechanism for training troops--
not just National Guard troops. Hopefully this center will wind 
up offering training that goes beyond the National Guard--
training that will then help these folks where--actually 
dealing with trauma events, whether they are overseas or here 
in the United States, multiple casualties, and how do you 
handle that?
    And that takes money. It is a $3.5 million request. Well, 
you know, multiply that over all the different things that you 
are doing, and I guess I find myself wondering whether or not 
it is your impressions--and I guess you will have to rely 
somewhat on your predecessors, as well--is it your impressions 
that, through the different administrations, our commitment to 
simulation and modeling, and the development of simulation and 
modeling, has remained fairly consistent and funding has been 
stable, if anything it has been increasing in an appropriate 
way?
    Or do you have the impression that as one administration 
comes in and replaces another all of a sudden the programs 
change, the funding levels change, and we are on this 
rollercoaster ride with regard to this critically important 
aspect of national defense that makes it very difficult for 
industry to plan how to partner with government to actually 
effectively develop the kind of simulation and modeling 
programs that we need?
    Are we sufficiently stable, gentlemen?
    Admiral Burke. Let me start with that----
    Admiral Lewis. May I----
    Admiral Burke. Go ahead.
    Admiral Lewis. May I start, Bill?
    Okay. Thank you, Congressman. Those are great questions 
related to the private sector, and certainly in the health care 
situation that we currently face in the United States now. 
Health care itself is certainly out of my lane, but in terms of 
the utilization of simulation in training of health care 
professionals, it is exploding within the country, I think 
partly because of the support that we, in the private sector, 
have--and then the health care industry, specifically--have 
received from the Congress of the United States.
    The M&S Caucus--Modeling and Simulation Caucus--the 
inception of that organization--the interest that was shown by 
the House of Representatives was a watershed event for the 
nation in terms of modeling and simulation is concerned--a 
watershed event in the sense that it gave the community the 
status that we have so long desired to achieve. But because of 
that and the interest that is developing here in this hearing 
this morning, for example, is--I think it is truly significant.
    It has caused many throughout the nation in different 
domains within our economy--specifically in health care--to 
focus a lot more attention and their own resources--not federal 
resources, but their own resources--on the development of 
simulation centers within hospitals and clinics across the 
nation. Mayo Clinic has a first-rate simulation center. There 
are hospitals in the Northeast that have first-rate simulation 
centers.
    The Medical College of Virginia, in Hampton Roads, has a 
simulation center. There is one now in Central Florida, as part 
of the new medical facility down in the Central Florida region. 
So it is growing by leaps and bounds.
    There is a new organization which stood up about five years 
ago in the country. It is called the Society for Simulation in 
Healthcare. It began with four people: an anesthesiologist, two 
nurses, and an obstetrician. It has now grown to total about 
2,500 people.
    Mr. Marshall. I find that very helpful. Do you mind if I--I 
am, though, specifically interested in your impressions 
concerning the sort of steadiness, administration to 
administration, of the program and the funding within DOD for 
modeling and simulation.
    I know that there has been an explosion of interest 
nationally in this, and I am just wondering, are we--it is so 
difficult for a private sector to partner with government when 
government is on a rollercoaster ride from administration to 
administration. How do I, as an entity, partner with somebody 
who is flaky and can't be relied upon?
    So my question specifically is, are we being consistent? 
Are we predictable with regard to our investments and our 
programs?
    Admiral Burke. Thank you, sir, for the question. I don't 
detect any change from administration to administration in 
funding. What I do detect, however, is that there are a bunch 
of things driving the desire for simulation now.
    And as an example of the first point I made, I said earlier 
I grew up in the submarine force. I remember reporting to my 
first submarine and going right to the submarine simulator, or 
the attack center simulator, and working with the crew to get 
proficient in that arena. So that was some 30 years ago, so we 
have been using these for a long time.
    Now, what I think is happening is recognition of fuel 
costs, and so recognition that fuel costs are going to go up, 
and so that is certainly a driver for simulators. If you use 
simulators your operating costs will go down, you will have 
less wear and tear, therefore less maintenance, therefore 
greater operational availability at less cost. So all those 
things are working together.
    But I would say that the other thing that has happened is 
it used to be, in the Navy, for instance, community-specific. 
Some communities would be more interested in simulators than 
others. And that is a cultural change that is occurring, and 
now I know I work for a Chief of Naval Operations that is 
pushing simulators. I know I work for a Secretary of the Navy 
that is very interested in simulators.
    I don't think it is because of a political bent; I think it 
is because of the time. I think the technology is exploding, 
and so the combination of the technology overcoming some of the 
cultural barriers and the requirement to save both fuel costs 
and produce operational availability at less cost are driving 
the explosion in military use of simulators.
    Mr. Marshall. Thank you for your indulgence, Mr. Chairman.
    Mr. Ortiz. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Members of the panel, thank you so much for joining us 
today and thank you for your service to our nation. I do want 
to get a sense of how our modeling and simulation is being 
applied, and I know that there is one dimension that it can 
assume, but I want to make sure, too, that there is--or 
understand that there is a balance there.
    And obviously modeling and simulation can help, but it can 
also take us down the road of more of a test-taking, outcome-
based effort than it is to really simulate the realism of what 
our men and women in uniform will face. So just to ask the 
panel collectively, how are you all seeking a balance in the 
full training regimen and using modeling and simulation to meet 
those needs and making sure that there is a balance, that we 
are not in a ``test-taking realm,'' but that we are in a mix of 
simulating reality, but also making sure that there is a 
mixture of that hands-on element, that while modeling and 
simulation can do a lot it is not the be all and end all.
    So I would like your perspective on how you all see that 
balance being attained in integrating modeling and simulation 
into the force structure needs.
    Admiral Burke. Thanks for the question, sir.
    I think we were probably there a couple years ago. By our 
own internal work we figured out that maybe we had become 
overreliant on computer-based training, if you will, 
particularly at some of our basic levels. So we have been 
striving to achieve balance in that area.
    I would say today we have got about--in that school 
environment we have about 8,500 instructors, and that results 
in a one to six instructor to student ratio, which we would 
love to have at our schools today. But we believe in this 
blended learning concept, and so a mix of computer-based 
training and live instructor.
    I think one of the benefits of computer-based training is 
we find that the people will dig into areas on their own where 
they are not comfortable. They will quickly pass by areas where 
they do have a comfort level and dig into some of those more 
challenging levels for them, and that may be different than 
what you find in a full classroom environment, so there are 
positives there.
    Now, we have shifted to hands-on training for things like 
valve repairs, and then we also have developed some front panel 
simulators, which look like a diesel engine, or look like an 
oxygen generator, and you can go and push the buttons and you 
get the noises and actual indications of a real simulator or of 
the real platform, but it is a simulator. So I think it is a 
step in the right direction, but we do, as you suggest, 
recognize there is a need for balance, and we are striving to 
achieve that balance today, sir.
    Mr. Wittman. Good.
    General Layfield.
    General Layfield. Thank you, Congressman, and thank you for 
your support to the military and their families, as indicated. 
I would like to specifically talk about computer-based training 
as we know it today--our virtual training, our online training, 
and our models and simulations.
    I do believe that the early days of computer-based training 
may have been somewhat test-oriented. It may have been 
programmatic and lockstep. However, today's computer-based 
models and all of our learning has grown so fast--our 
methodologies and how we learn--and that our modeling and our 
simulations associated with that are also growing, and we are 
learning from advancements in technology.
    I will give you a specific example. We have online, in 
conjunction with our services, developed a course that is 
called Virtual Cultural Awareness Training. It is called VCAT 
for short. It is a place you can go; it utilizes modeling and 
simulations. You can go to it online from home station or 
forward deployed, for that matter.
    But it immerses you in a set of challenges, a set of 
scenarios. It takes you to a place where you have to make 
decisions and it provides you feedback. And it allows you to 
see what happens when you maybe make the wrong decision.
    And it doesn't give you a test, and it doesn't give you a 
score. It gives you very clear feedback on how you are 
performing in this particular environment. And we find that to 
be very valuable.
    Thank you.
    Mr. Wittman. Thank you.
    General Gibson.
    General Gibson. Sir, I apologize. I may have misunderstood 
your question initially. I thought you meant the balance 
between tests through modeling and simulation versus using it 
in an experiential training method.
    Mr. Wittman. Well, that can certainly be one dimension of 
the question. If you would like to answer that dimension that 
would be great.
    General Gibson. Sir, and I will touch on the other in the 
sense that, yes, we use computer-based training throughout and 
strike a balance with the hands-on training before final 
evaluation all the way through OJT [on the job training] and 
supervision.
    But coming back, we are organized, obviously, as we bring 
new systems onboard from corporate to developmental testing, 
which we explore how that better applies with the blue-suit 
operator, and in our scenarios, then to operational test and 
evaluation, where again, we take it to the next level of 
application of new systems--introducing new systems, weapons, 
software. And finally, obviously, we use a lot of simulation 
in--from steps of par task training, where you just 
repetitively begin at the beginning, as it were, to where we do 
these networked operations that we talked about in a virtual 
environment.
    And as I have mentioned earlier in my testimony, especially 
today in many of our fifth-gen [generation] aircraft and 
systems, that is the only place that we will choose to operate 
and use all those weapons and systems that are available to us. 
So a very expansive into the mission testing capability.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    Admiral Burke, this subcommittee is much aware of 
challenges that the Navy is facing in regard to manning, 
training, and maintenance of surface fleet ships. Could you 
please explain how the Navy's response to those challenges 
would be reflected in the readiness models?
    Admiral Burke. Yes, sir.
    The way the readiness models work is they take a bunch of 
different inputs, and so all of them consider the force 
structure, they consider the schedule, they consider the 
training requirements and what happened in previous years, and 
then dependent upon which portion you are talking about--and in 
this case I think we are talking about ship readiness models--
then they take specific steps to figure out what the cost 
requirement would be.
    So the model simply responds to the database that we would 
have entered into it. So if we said, in the case of surface 
ships, that we would now want to--we now recognize that we have 
not been doing enough maintenance on them and we raise the 
maintenance requirement then that will raise the cost of doing 
business. Now, that is easy to understand but it is not simple 
to figure out how much that cost requirement will change.
    So additionally, if you put more people on board then that 
will change the amount of maintenance that is being done by the 
ship--by the ship's force--and consequently should reduce the 
maintenance that is being done off the ship. So there are 
competing pieces in that and the model will take all that 
information in once we tell it what the new requirements are 
and it will give us a cost.
    Does that get at your question, sir?
    Mr. Ortiz. Yes. But let me ask you, now, when you take the 
retakes some steps to figure out that how long does this step 
that you have to take--how long does it take to get to the 
bottom of the problem that you are looking at?
    Admiral Burke. From a model perspective, sir, it is very 
simple. It is changing a few inputs.
    The more challenging piece to this is determining what the 
actual requirement is. So if you decide that you now need to do 
much more maintenance on the ship you have to figure out what 
that specific maintenance is. Does that maintenance mean we are 
going to open up some tanks and we are going to do some repairs 
to those tanks? Does it mean we are going to do additional 
maintenance on pumps, valves, et cetera?
    That is the more challenging work, and that is the work 
that the Naval Sea Systems Command is doing now as they have 
completed several inspections of ships to know better what 
areas will need additional work. Once they have done that work 
it is--very rapidly, inside a day, we can generate new cost 
requirements, sir.
    Mr. Ortiz. Because I know that throughout some of the 
hearings that we have had in the past one of the problems I see 
is that even when we get new ships coming aboard some of them 
are rusted, the doors don't close, you know what I am talking 
about. So we also need to see how we can correct that, because 
the taxpayers are paying a heck of a lot of money, you know, 
and we hope that we get what we are paying for. And sometimes I 
think that maybe we are not--maybe we don't have enough 
personnel.
    But this is something that we need to look, you know, 
forward to, to correcting all this. And I know that you are 
doing your best, but we are here to see--how we can help you to 
reduce some of this.
    Now, the next question that I have is, what type of facts 
or events would require you--and I know you got into some of 
them--to require you to modify the readiness models? How 
quickly can the models respond to changing operational 
requirements?
    Admiral Burke. Yes, sir.
    Once again, the models will respond very rapidly to 
changing operational requirements. So what would happen in this 
case is COCOM X would require additional forces; we would--once 
that demand signal was adjudicated then we would--we could 
easily determine what it would take to generate that 
requirement and what it would cost to do that.
    Now, you know, there is only so much you can do. I mean, 
you can't get blood out of a stone, but within reasonable 
parameters of the same force structure and the same training 
requirements it is relatively easy to generate that new cost 
requirement, sir.
    Mr. Ortiz. And I will ask another question before I yield 
to my ranking member here, but your testimony stated that there 
was no direct connection between program steaming days and what 
was actually required to prepare for and execute the operations 
schedule. How have the models changed this, and how is the 
change reflected in the Navy's annual budget submission?
    Admiral Burke. Sir, I am not sure I heard the first part of 
your question. Could you repeat it, please?
    Mr. Ortiz. Yes, sir--your testimony there was no direct 
connection between--and this is what you stated--between 
programs steaming days and what was actually required to 
prepare for and execute the operational schedule. How have the 
models changed this and how is that change reflected in the 
Navy's annual budget submission?
    Admiral Burke. Yes, sir.
    In the past there was no real connection between--there 
was--I guess I--maybe I was too strong. There was a connection, 
it just wasn't as obvious as it is today with the model. So 
what we would essentially say was, ``Here is what worked last 
year. We need to generate about the same amount of presence, so 
therefore we need the same amount of steaming days or flying 
hours to do that.''
    Now what we do is we start from the demand signal and we--
once that is adjudicated--and then we use our FRP, our Fleet 
Readiness Program, to figure out--let's talk ships for a 
minute--to find out how much time the ship is going to be in 
the basic phase, the intermediate phase, the sustainment phase, 
and the maintenance phase to produce that level of presence at 
a particular readiness.
    And then from that we go into the specifics of how much the 
fuel costs, how much the utilities cost, how much training 
costs, et cetera, and then that generates the number of 
steaming days and the cost to do that.
    So it is more than steaming days because some of that time 
is spent alongside the pier doing other training, and we 
don't--so that output at the end is based on all those 
different pieces for the force that we have.
    It is pretty complicated, sir, and I know we have taken 
some of your staff through it and shown them how it works, but 
it is not real easy to explain. I am trying to do my best here.
    Mr. Ortiz. I know, I know. And I know that you always try 
to do your best, but--and the reason I ask this is because in 
prior budget requests we have seen where the Navy has cut 
steaming days.
    Admiral Burke. Yes, sir.
    Mr. Ortiz. You know that. But I think that this is a very--
part of the training that needs to be done----
    Admiral Burke. Yes, sir.
    Mr. Ortiz [continuing]. But I hope--you know, we are here 
today because we are working together and we hope that with 
this simulation modeling can help us get to where we want to go 
by not only protecting our sailors and Marines and soldiers, 
but also, you know, giving the equipment that we utilize longer 
life because--and save the taxpayers as much money as we can, 
because I know that Secretary Gates came down not too long ago 
and said, ``We need to cut down.''
    Admiral Burke. Yes, sir.
    Mr. Ortiz. You know, it is not easy. You know, it always 
comes to mind that we are concerned for the lives of these 
young men and women who are serving. We want to be sure that 
they have what they need so that they can survive these 
horrendous two wars that we are involved in.
    But I know that you are doing your best and we want to work 
with you at any idea that you come to us so that we can help 
you, let us know.
    Let me yield to my good friend, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and I will be brief.
    I want to kind of follow up on what Mr. Marshall asked. And 
Jim, your question, I think, a lot was on the funding 
rollercoaster that we have had, but it is more than funding.
    And so the question that I would leave to all of you to 
respond to is, how can DOD be kind of a national leader in the 
preemptive use of modeling and simulation so that we can 
respond to crisis situations? Is our current DOD governance 
such that it maximizes our modeling and simulation investment?
    But then the third thing--and this is what I was listening 
to as Jim was asking his question--are we giving the right 
signals to the industry as to what DOD needs in terms of 
modeling and simulation, because it is not just the funding 
stream, but sometimes it is that the industry is sitting out 
there saying you want one thing on Monday and another thing on 
Wednesday. Do we have a mechanism--to be able to give a clear 
picture to industry--this is what we need and this is what we 
think we are going to need over the next several years?
    And so I will throw that out to any of you who want to take 
a stab at that. You know, how do we become that preemptive 
leader and are we sending the right messages out to the private 
industry?
    General Layfield. Congressman, let me take a stab at that 
from a Joint Forces Command and training angle. The bread and 
butter of what we do for an exercise when we deliver a mission 
rehearsal exercise to the combatant commander for him to train 
on is relevance. And with respect to that, our modeling--our 
models and our simulations need to deliver. They need to 
deliver relevant simulations that replicate the battlespace 
that they are operating in.
    With respect to that, we have to spend and focus all of our 
efforts in the right direction, and there is no room for waste, 
of course. Therefore, the requirements systems that we have 
inside Joint Forces Command, with the services, and with the 
Office of the Secretary of Defense do, in fact, provide us 
adequate oversight to lay out those requirements on the table 
and match the appropriate resources with it, and I want to 
thank you for supporting the President's budget in that 
respect.
    I have to say that subordinate to that, at the flag officer 
and general officer level, where we meet in forums like a 
training community of interest or an executive board for the 
application of the $285 million for immersive training, we meet 
frequently to make sure that our requirements are in balance 
and that they are delivered to the Office of the Secretary of 
Defense appropriately. As a matter of fact, today I will attend 
the meeting specifically with that in mind where I will gather 
with other flag officers and general officers and SESers 
[Senior Executive Service] at OSD to discuss, are we getting 
after immersive training with the resources we were given?
    So thank you very much for the opportunity to discuss that 
from Joint Forces Command.
    Mr. Forbes. Anyone else want to take a bite at that?
    General Gibson. Sir, just briefly, I think, not to 
necessarily address the rollercoaster but as budgets come and 
go, obviously I heard the term earlier ``culture.'' We have 
that in our Air Force and DOD as we do anywhere, but as you 
begin to prioritize, as resources become constrained obviously 
we put a priority towards maintaining the aircraft and the 
actual systems because in the end that is what you will go to 
war with.
    And so there is a tendency sometimes, and those difficult 
challenges in the times that the simulation budgets will shrink 
or you will delay some of that concurrency that we talked 
about, keeping them relevant, and then that has a negative 
impact on the trainers' perceptions of the value.
    So I would just offer that as you begin to have budgets 
that become constrained, the first priority goes to the live-
fly and the actual systems and the maintenance of those, and 
then the simulation and the virtual environments sometimes take 
a second tier, and that is where I have seen the impact.
    Mr. Forbes. And, General, one thing I would just throw out 
to all of you--and I think we are united on saying this but I 
don't want to speak for my colleagues--it seems, almost, we 
should be doing the reverse. It seems like modeling and 
simulation of everything that we are utilizing, when budgets 
get tighter and things are tougher, modeling and simulation is 
the one vehicle that helps us navigate through those tight 
budgets, also helps us become more efficient and make sure that 
we have the readiness that we need.
    And so we need help from you as to how we continue that to 
make sure that we are not having that trimmed and cut.
    And, Admiral Lewis, do you have any comments on----
    Admiral Lewis. Yes, sir. Thank you, Congressman.
    One comment, and that is, as you described and were looking 
at is the relationship between and government, specifically 
with DOD. For the most part industry has a fairly good 
understanding of the requirements as they emerge from the 
different services and from the joint apparatus that we work 
with.
    However, there is always room for improvement. And so we 
strive and work very hard on both the industry side and on the 
government side to have a continuing dialogue between the two, 
to ensure that both sides understand the art of the possible, 
as far as the government is concerned, and that, as far as 
industry is concerned, we have a full and complete 
understanding of the requirement.
    Now, that dialogue ebbs and flows over time, and it depends 
on a number of different factors, but sometimes we find the 
dialogue is hindered by regulation, restrictions, and so forth, 
and then there are periods when there is complete open and 
honest and forthright communication between the two sides. But 
that is something we have to live with. We know that occurs and 
we have to deal with it.
    So I would say that for the most part, because of that 
dialogue--the interchange--and the bridge that is provided by 
industry associations like mine ensure that that communication 
is enhanced and continues to flow. I think that overall, 
though, we have an understanding of the way this system works 
and we go forward from there.
    Mr. Forbes. Well, I want to thank all of you for your work. 
I am going to yield back the balance of my time, but I also 
want to encourage you that even though the hearing technically 
will end in a few minutes the record is still open, so we would 
love to have your responses or thoughts if you would like to 
put anything in there that we can utilize to help with this 
industry and the great work all of you are doing.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Marshall [presiding]. Thank you, Randy.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I just have one quick question. I want to kind of follow up 
on Congressman Forbes' question to Admiral Lewis.
    I know as we talk to folks in the modeling and simulation 
industry we talk about encouraging innovation, encouraging 
creativity, encouraging them to kind of push the envelope. Do 
you think that--number one--that the capacity is there for them 
to push the envelope, and do you think that they are doing that 
in such a way that precipitates thought amongst our service 
branches on what the future capabilities of modeling and 
simulation bring to the table?
    In other words, I see it kind of as a two-way street, not 
only as a clear demand signal, but also the industry pushing 
the envelope so that the service branches can understand 
potentially what is out there and what the capabilities might 
be in the future, and that hopefully that spawns innovation and 
creativity.
    Admiral Lewis. Well, thank you, Congressman, for that 
opportunity. But very briefly, just let me say that the 
stimulation of innovation and creativity, I think, is alive and 
well within the modeling and simulation industry and the 
companies and corporations that are involved in that kind of 
activity.
    I will give you an example. I know you have been to ITSEC. 
Thank you, sir, for your participation. We look forward to you 
returning again later on this year.
    But at that event we have about 500 exhibitors, and 
typically we have 100 new--100 to 150 new exhibitors every 
year. So what happens between--to those 100 to 150 that are 
replaced each and every year? Well, most of them are small 
companies, small--20 to 25 personnel within a company. They 
have got one idea.
    This is America at its best when we see this kind of 
activity occurring, these people, these entrepreneurs with one 
good idea. They showcase that idea at an event like ITSEC, for 
example, and they either succeed and they go on, they get 
bought up, or, sadly, some of them probably fail.
    But that is alive and well. The ability--the capacity is 
there. The desire is there. And the intellect is there to go 
forward and develop these new things that the services do find 
of value even though they may not have had a, you know, an 
overt requirement for that particular piece of capability.
    Mr. Wittman. Thank you, Admiral Lewis.
    Mr. Chairman, I yield back.
    Mr. Marshall. All of us have experienced your simulators. I 
have been in a couple of Air Force simulators, done one Army 
simulator.
    But I have to say, Admiral, that the naval simulator up at 
Annapolis was very helpful to the Navy, at least in one 
instance. A group of us from Congress went up there on a CODEL 
[Congressional Delegation]--pretty easy. You just drive up to 
Annapolis, no big deal--with the idea that we were going to be 
playing faculty and staff in baseball after the CODEL. And 
right before we were going to go out and play the baseball game 
you put us in a simulator and half the team was seasick for the 
game. So I thought that was actually a pretty good strategy in 
the use of simulators.
    I want to thank you all for what you do. It is terribly 
important to national defense. We need to fund you adequately, 
give you the kind of support that you need in order to do this.
    And with that, we are adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             July 20, 2010


=======================================================================
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 20, 2010

=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 20, 2010

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    General Gibson. The Air Force relies on modeling and simulation 
(M&S) for predicting the structural integrity and reliability of its 
fleet. This is critical since many aircraft remaining in the Air Force 
inventory are far exceeding their design service life and being 
operated at more severe levels than those for which they were designed. 
To keep the fleet flying, numerous aircraft systems and major 
components require replacement, such as wings and airframe structural 
elements.
    In response to numerous fatigue-related structural failures in the 
1950s, the Air Force established the Aircraft Structural Integrity 
Program (ASIP) in 1958. ASIP established a systems engineering 
framework to develop, certify, and maintain the structure of an air 
vehicle with the least possible economic burden throughout its service 
life and is required on all aircraft weapon systems per Air Force 
Policy Directive 63-1 with requirements documented in Military Standard 
1530C.
    The Aircraft Structural Integrity Program has proven instrumental 
in controlling the loss of aircraft due to structural failure. In fact, 
the probability of loss due to structural failure is now approximately 
50 times lower than all other causes. Since ASIP's inception in 1958, 
M&S has been integral to achieving this demonstrated structural 
reliability. Structural models (e.g., finite element models) and 
analytical tools are widely used to predict the aircraft structure 
strength, stiffness, service life, etc. During development, models are 
calibrated using data from ground and flight testing. During 
sustainment, models are updated to reflect configuration changes and 
are calibrated through additional ground and flight testing when 
required. Structural models are also updated and refined with real 
world usage and maintenance data. In addition, structural models are 
updated to reflect unanticipated events such as the November 2007 crash 
of a 25-year old F-15C. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 20, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. How might the Department of Defense serve as a national 
leader in the pre-emptive use of modeling and simulation to develop 
responses to various national crises scenarios?
    Admiral Burke. The Department of Defense conducts joint and 
collaborative analyses, synchronized with the Planning, Programming, 
Budgeting and Execution (PPBE) System, to support the development and 
evaluation of defense strategy. This is accomplished through the 
Analytic Agenda initiative which develops the processes and products--
including planning scenarios, concept of operations, and analytic 
baselines--that form the basis for strategic analysis and assessments. 
Modeling and simulation is used in developing and assessing the 
Analytic Agenda, its planning scenarios, and in the detailed follow-on 
analyses and assessments used for the PPBE.
    The majority of the planning scenarios are contained within the 
analytic agenda and focus on potential future crises where the military 
is expected to be the lead agency. These scenarios include full-scale 
warfare campaigns; foundational defense activities such as presence and 
engagement; defense of the homeland; and irregular warfare and security 
operations--all of which leverage modeling and simulation.
    Several national crises scenarios, which leverage modeling, are 
focused on crises where the Department of Defense supports other 
departments and agencies. For example, the Enhanced Protective Posture 
(EPP) scenario examines a variety of potential homeland security 
concerns that arise in conjunction with overseas contingencies. In this 
effort, modeling assists in determining how to prepare for, mitigate, 
and respond to those concerns. The EPP includes the Assistant Secretary 
of Defense for Homeland Defense (ASD-HD), National Guard Bureau (NGB), 
Coast Guard, as well as the normal DOD analytic agenda participants. 
Other examples that leveraged modeling and simulation which supported 
inter-agency crises scenarios include the Homeland Defense Analytic 
Baseline which examined a range of natural and man-caused homeland 
crises as well as Defense Support to Civil Authorities for Consequence 
Management (DSCA-CM) studies.
    Thus the Department of Defense is active in using models and 
simulations in the pre-emptive planning and assessment of a variety of 
national crises scenarios. These efforts within the Department of 
Defense could be used as a template for other departments and agencies 
to follow and perhaps form the basis for collaborative inter-agency 
planning and crises response.
    Mr. Ortiz. How does the expansion and technological advancement of 
surface ship and aviation training simulators fit within each of the 
department's energy conservation goals?
    Admiral Burke. The use of surface ship and aviation training 
simulators facilitates the reduction of fuel consumption. Consumption 
reduction is critical to the achievement of Navy energy goals. Navy is 
drafting a plan outlining the competencies that can be effectively 
accomplished within the training simulator environment. Simulation use 
is being assessed for current levels of utilization to ensure that 
available simulators are being used to the maximum extent possible. 
Additionally, fidelity assessments will ensure that each module is an 
effective reflection of ``real-time'' operating environments. Navy 
recognizes that maximizing simulation use will require significant 
culture change. However, given the technology that is currently 
available, Navy is confident that increased simulator use will help 
meet the Navy's fuel consumption reduction goal.
    One recent example of the expansion and technological advancement 
of Navy simulation is the MH-60R Seahawk simulator installed April 13, 
2010, at Naval Air Station (NAS) Jacksonville, the first of its kind on 
the East Coast. The MH-60R Seahawk simulator was also approved to 
support Helicopter Sea Combat Wing U.S. Atlantic Fleet in training 
pilots. The ability of the new simulator to create multiple training 
environments and situations will enhance readiness and enable MH-60R 
Seakhawk pilots to complete a greater percentage of training 
requirements in the simulator, reducing fuel consumption and 
contributing to the Navy's energy conservation goals.
    Mr. Ortiz. In your opinion, does the existing governance in the DOD 
maximum M&S investments to enhance readiness? If not, what changes can 
be made to improve the management structure to add value and increase 
return-on-investment?
    Admiral Burke. The existing DOD and Navy Modeling and Simulation 
governance is designed to support the effective generation of Navy 
units and battle groups ready to support the Combatant Commanders. DOD, 
working with the Combatant Commanders and individual Services, has 
developed the Joint National Training Capability which provides a 
standard infrastructure to support interservice and interagency 
training while remaining flexible enough to respond to Service and 
Community specific needs. While interoperability might potentially be 
increased by more central authority, the responsiveness to the end-
user, i.e., Service and Community specific needs, may be reduced. The 
current, flexible and cooperative approach strikes an appropriate 
balance for all.
    Mr. Ortiz. What is the relationship between the M&S industry and 
the DOD? Does industry have a clear demand signal for the types of M&S 
capabilities DOD is seeking to improve readiness?
    Admiral Burke. We believe industry is keenly aware of DOD M&S needs 
and requirements for Readiness. Individual programs work closely with 
vendors to ensure system level requirements are understood, and at a 
broader, enterprise level, the core technology and standards have been 
adopted for at least the last four years. We are focused on our need to 
ensure the ability of the government to exercise M&S building blocks 
and achieve reuse where appropriate. We continue discussions in 
multiple venues with our industry partners to move toward a more open, 
standards-based environment to facilitate integration and reuse of M&S 
while taking into account industry's sensitivities to sharing products 
across industry partners.
    One such venue is the annual Interservice/Industry Training, 
Simulation and Education Conference which provides an opportunity for 
significant interchange and dialogue between government and industry. 
The 2009 conference had approximately 19,000 registrants, roughly half 
of which were government. This venue provides a technology showcase 
that drives discussion and ideas, as well as both government and 
corporate leadership panel discussions and sessions to review subject 
matter experts' papers on all our requirements, goals and needs of the 
community.
    Mr. Ortiz. What led the Navy to recognize that it needed accredited 
models for determining its readiness resourcing requirements? What 
contact has the Navy had with the other services about adapting the 
Navy's models to their requirements? Has Military Sealift Command 
approached the Navy about adapting the readiness models for its own 
use?
    Admiral Burke. The Navy's Performance Pricing Model initiative was 
started in 2003 after Resource Sponsors and Budget Submitting Offices 
were unable to: (1) relate desired readiness outputs to specific 
funding levels, and (2) clearly articulate the impact of budget 
reductions to Fleet Readiness due to a lack of clearly defined output 
metrics.
    The purpose of the Performance Pricing Model initiative is to 
provide senior Navy leadership quantitative tools that would allow them 
to have confidence in the requirements being submitted for funding as 
well as visibility in how that funding requirement was developed, the 
readiness risk associated with not funding to that requirement, and/or 
at various funding at levels. By shifting to a process where the 
elements of Fleet Readiness can be quantified in a modeling process the 
leadership debate shifts away from a pure resource level discussion to 
a more productive conversation of the risk associated with each output 
level which can then be tied to the overall planning and programming 
process.
    Mr. Ortiz. What contact has the Navy had with the other services 
about adapting the Navy's models to their requirements?
    Admiral Burke. There have been numerous readiness model briefings 
by Navy personnel to DOD and other service personnel. Recently the 
Flying Hour Program Team briefed USAF personnel on the Flying Hour 
model/methodology and readiness metrics. On 12 August, the Aviation 
Depot Maintenance Team briefed representatives from the USAF on the 
Aviation Depot Maintenance models and requirement determination. We 
have also routinely briefed members of the OMB Staff on our Readiness 
models.
    Mr. Ortiz. Has Military Sealift Command approached the Navy about 
adapting the readiness models for its own use?
    Admiral Burke. While MSC and Navy operations have significant 
differences, many similarities in ship material readiness modeling 
exist. Both have maintenance, fuel, parts and other operational 
requirements in common. In an effort to take advantage of these 
similarities and find efficiencies in operations, there has been an 
ongoing exchange of information and expertise between MSC and the Navy. 
MSC participates in the Navy's Fleet Readiness Enterprise, an 
initiative to improve understanding of business practices to better 
manage the efficient and effective production of current readiness and 
future capability. MSC also utilizes established models from the 
commercial maritime industry, and shares its experience in this area. 
Currently there is no formal program for adapting Navy readiness models 
for use by MSC.
    Mr. Ortiz. What type factors or events would require you to modify 
the readiness models? How quickly can the models respond to changing 
operational requirements?
    Admiral Burke. Typical factors or events that require changes to 
the readiness model inputs include changes in:

    <bullet>  Global Force Management Schedule
        <all> Presence & Surge requirements

    <bullet>  Force Structure
        <all> Number of ships and airplanes by Class and Type Model 
        Series

    <bullet>  Pilot crew seat ratio (required number of pilots per 
aircraft)
        <all> Homeport assignments
        <all> Flight Student Training requirements

    <bullet>  Class/Type Model Series Maintenance Plans
        <all> Maintenance schedules

    <bullet>  Fleet Response Training Plan (FRTP) requirements
        <all> Basic and Intermediate Phase steaming day requirements
        <all> Training and Readiness Matrix requirements

    <bullet>  Cost data:
        <all> Labor cost
        <all> Material cost
        <all> Fuel cost
        <all> Escalation (inflation) guidance

    Mr. Ortiz. How quickly can the models respond to changing 
operational requirements?
    Admiral Burke. There is a virtually unlimited capacity to produce 
model variations based upon ``what if'' scenarios of OPTEMPO and FRP/Ao 
configurations. Adaptation of the models to scenarios that do not 
require significant changes in force structure or operational practices 
is relatively easy. Adaptation of the models to scenarios that require 
significant force structure changes or assume different operating 
practices are significantly more difficult.
    Mr. Ortiz. How might the Department of Defense serve as a national 
leader in the pre-emptive use of modeling and simulation to develop 
responses to various national crises scenarios?
    General Layfield. DOD uses modeling and simulation to develop, 
refine, and adjust response plans for a multitude of national crisis 
scenarios. These efforts account for the complex nature of the 
operating environment and challenges of integrating with a full range 
of mission partners. These capabilities are currently used to support 
interagency and multinational exercises and experimentation. Given 
DOD's unique ability to create complex scenarios supported by modeling 
and simulation, it is ideally suited to serve as the national lead, if 
so designated.
    There are some areas where DOD is already using modeling and 
simulation to support our Inter Agency partners. For example, DOD's 
Joint Knowledge Online (JKO) is an online training capability that 
continuously and rapidly adapts to meet emerging training needs by 
leveraging simulation technology. The Small Group Scenario Trainer 
(SGST) application is a JKO-hosted, Web-based exercise application for 
multiplayer, small group teams, cells and battle staff training 
exercises. The system uses interactive capabilities to teach creative 
thinking skills, addressing problems encountered during virtual, 
mission-based, simulated scenarios. Most recently, U.S. Southern 
Command (USSOUTHCOM) teamed with JKO to create two SGST scenarios that 
provided training in a Humanitarian Assistance/Disaster Relief (HA/DR) 
environment.
    Mr. Ortiz. How does the expansion and technological advancement of 
surface ship and aviation training simulators fit within each of the 
department's energy conservation goals?
    General Layfield. Surface ship and aviation simulators are an 
important component of the military services' training regimen. Because 
the military services have primary responsibility for surface ship and 
aviation training simulation, they are appropriately positioned within 
the Department of Defense's energy conservation efforts. Accordingly, 
we have contacted my colleagues within the U.S. Army, U.S. Air Force 
and U.S. Navy to assist in answering this question and will report back 
to you upon receiving their inputs.

U.S. Air Force: HQ USAF/A3/0--Operations, Plans and Requirements

    Given that the Air Force is the largest user of fossil fuels within 
the DOD, it is paramount for us to continually look towards 
capitalizing on M&S tools to ensure our requirements for both aircraft 
and training simulators are in step and complement one another. We 
continue to make great strides in level of fidelity of our immersive 
combat trainers and we have found several ways in which training can be 
accomplished in simulators or with simulation to reduce the energy 
consumption footprint. Examples include:

    <bullet>  In 2009, Airborne Warning and Control System (AWACS) 
crews conducted 1,968 training events in Virtual Flag, and the Joint 
Surveillance and Targeting Attack Radar System (JSTARS) accomplished 
760 training events in their mission simulators.

    <bullet>  No fuel is used during the check-out of a C-17 copilot. 
All of his training is accomplished in the schoolhouse using immersive 
tools such as simulations so that his first sortie in a C-17 is 
actually transporting personnel and materiel in support of our world-
wide operations.

    <bullet>  In line with the commercial airline industry, Air 
Mobility Command uses full motion simulators with six degrees of 
freedom providing realistic training that permits us to decrease the 
number of live training flights. KC-10 air refueling aircraft 
simulators have allowed us to decrease the number of flights required 
to produce a mission ready pilot. The initial qualification syllabus 
prior to 2005 consisted of 17 simulator lessons and nine flights. The 
current syllabus increases the simulator lessons to 23 and decreases 
flights to six.

    We will continue to evaluate which tasks must be accomplished in 
the cockpit versus which can be completed in simulators to ensure the 
training and readiness of our forces is not compromised. With continued 
advancements of high fidelity, immersive simulators, we will be able to 
train for additional mission tasks. The use of mission certified 
simulators reduces fuel consumption by shifting the balance between 
live and simulated flight with the objective of producing combat 
capable aviators through maximum, cost-effective training.

U.S. Army: HQ USA/G-8--Programs

    The Army's increased use of aviation simulators has led to energy 
conservation. The task of maintaining the proficiency of experienced 
and trained pilots is a necessary task that would consume many more 
gallons of fuel if not for the use of aviation simulators. Pilots 
require an annual robust training program that uses both live and 
virtual methods to maintain proficiency.
    The table below is the FY10 HQDA G-3/5/7 Aviation Directorate 
estimate of fuel cost avoidance due to simulation use. Lastly, the Army 
did not program to purchase fuel for live flight training in FY10 due 
to simulator use.

------------------------------------------------------------------------
                                    Flight Simulator Fuel Cost Avoidance
------------------------------------------------------------------------
Army (-) USAACE...................  $61.9M
------------------------------------------------------------------------
USAACE............................  $37.3M
------------------------------------------------------------------------
Army Total........................  $99.2M
------------------------------------------------------------------------


U.S. Navy: HQ USN/N-4--Material Readiness & Logistics

    The use of surface ship and aviation training simulators 
facilitates the reduction of fuel consumption. Consumption reduction is 
critical to the achievement of Navy energy goals. Navy is drafting a 
plan outlining the competencies that can be effectively accomplished 
within the training simulator environment. Simulation use is being 
assessed for current levels of utilization to ensure that available 
simulators are being used to the maximum extent possible. Additionally, 
fidelity assessments will ensure that each module is an effective 
reflection of ``real-time'' operating environments. Navy recognizes 
that maximizing simulation use will require significant culture change. 
However, given the technology that is currently available, Navy is 
confident that increased simulator use will help meet the Navy's fuel 
consumption reduction goal.
    One recent example of the expansion and technological advancement 
of Navy simulation is the MH-60R Seahawk simulator installed April 13, 
2010, at Naval Air Station (NAS) Jacksonville, the first of its kind on 
the East Coast. The MH-60R Seahawk simulator was also approved to 
support Helicopter Sea Combat Wing U.S. Atlantic Fleet in training 
pilots. The ability of the new simulator to create multiple training 
environments and situations will enhance readiness and enable MH-60R 
Seahawk pilots to complete a greater percentage of training 
requirements in the simulator, reducing fuel consumption and 
contributing to the Navy's energy conservation goals.
    Mr. Ortiz. In your opinion, does the existing governance in the DOD 
maximum M&S investments to enhance readiness? If not, what changes can 
be made to improve the management structure to add value and increase 
return-on-investment?
    General Layfield. The Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics (USD AT&L) is the designated 
focal point for coordinating all matters related to DOD modeling and 
simulation. USD AT&L has established a Modeling and Simulation Steering 
Committee which is the centralized organization to coordinate and 
synchronize efforts across the DOD. This committee, working with the 
designated communities of interest within DOD, develops a Modeling and 
Simulation Corporate and Crosscutting Business Plan. That plan guides 
the investment and management priorities for DOD modeling and 
simulation efforts, fostering coordination of the Services, as well as 
other communities.
    As the Secretary of Defense recently articulated, the DOD must 
continue to align itself and refine its processes to improve 
efficiency. Within the area of modeling and simulation there may be 
room to improve the coordination and establishment of a DOD-wide 
approach to further reduce duplicative efforts and increase synergy 
through collaborative and transparent business processes, incentivizing 
Services to deliver ``born joint'' models and simulations.
    Mr. Ortiz. What is the relationship between the M&S industry and 
the DOD? Does industry have a clear demand signal for the types of M&S 
capabilities DOD is seeking to improve readiness?
    General Layfield. DOD components participate in forums such as the 
Interservice/Industry Training, Simulation and Education Conference, 
MODSIM World, Simulation Interoperability Workshop, Advanced 
Distributed Learning Implementation Fest and the International Training 
and Education Conference. DOD does this to demonstrate its 
capabilities; collaborate on challenges; and solicit partnership 
opportunities with industry, academia and international partners. DOD 
elements also author articles on initiatives and challenges in 
publications such as Military Simulation and Training and Military 
Training Technology magazines to communicate to industry. These forums 
have enabled positive engagement and brought together subject matter 
experts across the community to address readiness issues as related to 
modeling and simulation (e.g., small unit immersive training, human 
social cultural and behavior modeling).
    Mr. Ortiz. How does JFCOM collect feedback from users of your 
virtual/simulated training regarding its realism and effectiveness? How 
long does it take to implement changes that such feedback might 
produce?
    General Layfield. USJFCOM collects feedback from combatant commands 
on the realism and effectiveness of its virtual/simulated systems by 
conducting event after action reviews at the conclusion of each 
training event, as well as staff assistance visits in theater 
approximately 90 days after the headquarters is deployed. USJFCOM also 
has event surveys which are conducted at the end of each event, which 
include specific questions on how the modeling and simulation systems 
performed in support of combatant command goals and training 
requirements. USJFCOM also conducts a series of conferences with the 
combatant commands and Services to gather joint training related 
modeling and simulation requirements. Required changes to the suite of 
modeling and simulation systems can be delivered in days or weeks, if 
identified as a critical need, but normally updates are provided on a 
semi-annual software release cycle, which has saved money for USJFCOM 
and its service partners, while also reducing the risk of systems or 
database failures.
    JKO Joint Courseware Facilitators (JCF) are key contributors to the 
operational relevance of courses and exercise support development for 
JKO. JCFs work directly with the exercise Observer/Trainers to 
coordinate JKO support for OIF and OEF Mission Rehearsal Exercises and 
content for online courses. The JCFs attend MRX planning conferences 
with the Observer/Trainers in order to capture ever-changing and up-to-
date JKO courseware content that originates from deployed or soon to 
deploy JTF headquarters, identifying ways in which JKO can be 
integrated with early exercise planning.
    Mr. Ortiz. How might the Department of Defense serve as a national 
leader in the pre-emptive use of modeling and simulation to develop 
responses to various national crises scenarios?
    General Gibson. The Department of Defense already serves as a 
national leader in the pre-emptive use of modeling and simulation to 
develop responses to various national crises scenarios. In the Air 
Force, we do this through the use of constructive simulations such as 
Air Warfare Simulation (AWSIM), Information Operations Suite (IOS) and 
Air Force Synthetic Environment for Reconnaissance and Surveillance 
(AFSERS). Additionally, we federate with other DOD Joint simulations 
currently sponsored by JFCOM, the Navy, the Army and others creating a 
joint environment that shows the proper representation of Air, Space, 
Naval and Land power that can be, and are, used to train for 
humanitarian crisis at home or abroad. The command and control tools we 
use to prepare our staffs for major crises during a large scale 
exercise can also be used to support national crises scenarios at 
varying levels and intensity. As a department, we do this around the 
world, at COCOM sponsored events such as Austere Challenge in EUCOM and 
Ulchi Freedom Guardian in USFK. In preparing for defense of the United 
States, the DOD and its accredited Joint Task Force Commanders and 
Combatant Commanders are uniquely prepared to respond in case of 
national crises at home and abroad. Modeling and simulation is a 
powerful enabler that allows us to train to a variety of national 
crises, at varying intensities, to assure the DOD is prepared for any 
contingency it is called to support. That robust training prepares not 
only DOD, but other Inter-Agency personnel, to assure trained, 
certified personnel who have experienced the pressures and challenges 
of national emergencies.
    Mr. Ortiz. How does the expansion and technological advancement of 
surface ship and aviation training simulators fit within each of the 
department's energy conservation goals?
    General Gibson. Given that the Air Force is the largest user of 
fossil fuels within the DOD, it is paramount for us to continually look 
towards capitalizing on M&S tools to ensure our requirements for both 
aircraft and training simulators are in step and complement one 
another. We continue to make great strides in level of fidelity of our 
immersive combat trainers and we have found several ways in which 
training can be accomplished in simulators or with simulation to reduce 
the energy consumption footprint. Examples include:

    <bullet>  In 2009, Airborne Warning and Control System (AWACS) 
crews conducted 1,968 training events in Virtual Flag and the Joint 
Surveillance and Targeting Attack Radar System (JSTARS) accomplished 
760 training events in their mission simulators.

    <bullet>  In line with the commercial airline industry, Air 
Mobility Command uses full motion simulators with six-degrees of 
freedom providing realistic training that permits us to decrease the 
number of live training flights. KC-10 air refueling aircraft 
simulators have allowed us to decrease the number of flights required 
to produce a mission ready pilot. The initial qualification syllabus 
prior to 2005 consisted of 17 simulator lessons and nine flights. The 
current syllabus increases the simulator lessons to 23 and decreases 
flights to six.

    We will continue to evaluate which tasks must be accomplished in 
the cockpit versus which can be completed in simulators to ensure the 
training and readiness of our forces is not compromised. With continued 
advancements of high fidelity, immersive simulators, we will be able to 
train for additional mission tasks. The use of mission certified 
simulators reduces fuel consumption by shifting the balance between 
live and simulated flight with the objective of producing combat 
capable aviators through maximum, cost-effective training.
    Mr. Ortiz. In your opinion, does the existing governance in the DOD 
maximum M&S investments to enhance readiness? If not, what changes can 
be made to improve the management structure to add value and increase 
return-on-investment.
    General Gibson. The current governance structure in DOD is 
effectively used to assure M&S investments used to enhance readiness 
are leveraged across the Services. The Air Force has many agreements 
with the Army to assure our simulations are integrated to assure the 
best possible training for our combat forces. The constructive 
simulations federated within the JFCOM exercise program are adding 
valued support to our COCOM command and control exercises while 
eliminating duplication of effort.
    The Services have cooperated in integrating many of our virtual 
simulators to assure an immersive training environment utilizing the 
latest technologies available on the battlefield. The Joint Terminal 
Attack Controller (JTAC) training the Air Force does in concert with 
the Brigade Combat Teams (BCT) of the Army assures experienced 
personnel are deployed in support of OEF. That training assures our 
JTACs are proficient on the latest battlefield procedures, equipment 
and rules of engagement prior to deployment. The success of that 
program is a testament to the cooperation in DOD to maximize M&S 
investments across the Services.
    The Joint Capabilities Integration and Development System (JCIDS) 
is currently processing the Enterprise Architecture for Live, Virtual 
and Constructive Environments (EA-LVCE) effort. This Joint program, led 
by the Air Force, will continue to build on the previous M&S 
investments. The continued Congressional support of DOD M&S integration 
efforts will help ensure the readiness and combat capability of all our 
DOD forces.
    Mr. Ortiz. What is the relationship between the M&S industry and 
the DOD? Does industry have a clear demand signal for the types of M&S 
capabilities DOD is seeking to improve readiness?
    General Gibson. Industry deserves a good understanding of the DOD 
requirements and that should be a priority of all acquisition 
organizations. Within the Air Force, we have periodic ``Industry Days'' 
where our acquisition community addresses the anticipated future 
requirements with its industry partners. There are other events where 
the Services join together to present their needs to industry in open 
forums and the Services are available to answer questions from industry 
both as a group and in smaller settings with more limited 
participation.
    DOD also has a need for industry to provide information on the 
state of technology in the private sector. We continue to strengthen 
and foster that integration, as the Air Force regularly receives 
updates on the state of M&S as it affects the virtual-constructive 
technologies and the Distributed Mission Operations that the Air Force 
relies on for training its combat forces. We incorporate those 
technologies as appropriate to meet training requirements.
    Mr. Ortiz. What is the practical impact of OMB's rejection of the 
unique industrial classification code? How is this affecting industry's 
ability to bring greater modeling and simulation capability to the 
Department of Defense?
    Admiral Lewis. The repeated rejection of our proposal to create new 
NAICS codes for modeling and simulation has a direct negative impact on 
our industry and community of practice in a number of areas. Firstly, 
it greatly impedes, if not stifles, any ability to quantify the 
considerable and growing contribution the modeling and simulation 
industry is making to the national economy. We know, for example, that 
modeling and simulation is a commanding economic and technological 
presence in areas such as Orlando and Hampton Roads, Virginia, as well 
as in a growing number of other centers around the country. Creation of 
NAICS codes for M&S would allow us, for the first time, to measure the 
economic contribution being made by our industry on a nationwide 
scale--a measurement that would be vital to public understanding of the 
significance of this technology to our present and future. Such 
recognition would also enable DOD to gain an understanding of the 
importance, growth and health of modeling and simulation as a component 
of overall industrial support of national defense. Understanding of 
modeling and simulation as an industrial component of DOD support would 
enable more accurate estimations of the value of its contribution to be 
made, in the context of comparison with other elements of readiness.
    Mr. Ortiz. How might the Department of Defense serve as a national 
leader in the pre-emptive use of modeling and simulation to develop 
responses to various national crises scenarios?
    Admiral Lewis. In my view, the Department of Defense is already 
playing a significant national leadership role through its use of 
modeling and simulation in a number of critical national security 
areas. In recent years, for example, we have witnessed DOD harnessing 
M&S to address the challenges of COIN and other asymmetric threats. 
Through synthetic, immersive environments, our warfighters are now 
exposed to training, which, with ever increasing fidelity, mimics those 
situations they will face in Iraq, Afghanistan and other potentially 
hostile environments.
    This ability to create convincing synthetic battlespaces for 
counterinsurgency warfare training is a comparatively recent 
development, and testimony to the flexibility and adaptability of the 
modeling and simulation industry in response to rapidly shifting DOD 
training requirements.
    Even more recently, we have witnessed heightened awareness of the 
grave threat to our national infrastructure posed by cyber aggression. 
The Department of Defense, along with other national security agencies, 
is utilizing simulation technology--in particular, constructive 
simulations--to depict large-scale cyber attacks against elements of 
our national energy grid, satellite and internet communications and 
other critical components of our infrastructure critical to continued 
functioning of our national security apparatus.
    Turning to the Defense Department's role in responding to natural 
disasters, again we see a variety of simulation training regimes in 
play. We can now replicate disaster consequences with great fidelity, 
enabling elements of DOD to design and test responses to ensure maximum 
effectiveness. This translates directly into amelioration of human 
suffering and more rapid recovery.
    In all these areas, the Defense Department is playing and will 
continue to play a leading role, having pioneered the use of simulation 
training technologies in the first place. I think it is important to 
note, however, that DOD must be careful to integrate its efforts where 
appropriate with those of other agencies involved in national security 
enhancement, such as DHS and the civilian intelligence community, to 
maximize the effectiveness of our overall efforts to prepare the nation 
for events we all hope will not occur.
    Mr. Ortiz. How does the expansion and technological advancement of 
surface ship and aviation training simulators fit within each of the 
department's energy conservation goals?
    Admiral Lewis. Simulator training on all platforms, be they surface 
ships, aviation, or land systems, contributes directly and measurably 
to DOD energy savings, as well as savings in other critical areas. The 
``man-machine'' training interface is now a very mature technology, 
with simulation very closely replicating the sights, sounds and feel of 
the real thing. This fidelity allows these virtual environments to 
supplant, to a great extent, live training. Each hour thus spent in a 
simulator is an hour's fuel saved, as well as lubricants, and even use 
of land, in the case of surface vehicles. But simulation training's 
benefits extend even further. Simulation dramatically reduces wear and 
tear on our increasingly taxed equipment, as well as its ``down time'' 
and even personnel savings, as less maintenance means fewer man hours 
dedicated to turning wrenches. So--simulation training contributes 
directly to reductions in both the Operations and Maintenance and the 
Personnel accounts--savings that can be redirected to other critical 
DOD budget categories such as RTD&E and procurement.
    Mr. Ortiz. In your opinion, does the existing governance in the DOD 
maximum M&S investments to enhance readiness? If not, what changes can 
be made to improve the management structure to add value and increase 
return-on-investment?
    Admiral Lewis. Until fairly recently, I sensed some reluctance in 
some DOD sectors to recognize the full potential of modeling and 
simulation to contribute to economies and efficiencies in important 
areas. This is rooted, I believe, in reservations about the payback of 
time spent training in artificial environments and away from the ``real 
thing''. Now, this reticence is being reduced by the undeniable 
attributes of simulation training in many areas. But--reservations 
remain in some important areas. Our member corporations point out, for 
example, that some DOD elements have yet to embrace as fully as they 
might the use of simulations in MOUT environments, preferring to rely 
on live training to prepare warfighters. This reluctance follows the 
pattern of lag between the maturation of simulation capabilities in 
given environments and the full realization of their utility in that 
context on the part of DOD operators. It has only been in the last 
several years that M&S has reached the point that it can play a useful 
role in small unit training, and therefore we are again seeing a gap 
between attainment of this capability and its full utilization by DOD. 
Several of our corporate members are ready and able to provide such 
environments, but are waiting for DOD elements to provide major impetus 
to this capability.
    Mr. Ortiz. What is the relationship between the M&S industry and 
the DOD? Does industry have a clear demand signal for the types of M&S 
capabilities DOD is seeking to improve readiness?
    Admiral Lewis. In general, our corporate membership thinks that DOD 
requirements--the ``demand signal''--are usually clear, realistic and 
conform to industry capabilities. The problem lies with the contracting 
cycle, which is viewed as far too drawn out and cumbersome. This of 
course touches on the wider issue of acquisition reform, which is being 
properly accorded priority attention within the defense establishment. 
Our membership reports that, by the time the contractual exercise has 
run its course, in many cases the original requirements have been 
rendered obsolete by advancing technology and inherently involve too 
many corporate resources to satisfy. In addition, our membership 
reports that DOD needs to be willing to contract for longer periods--
for ten years at least, rather than the typical five. After a contract 
is finally let, it takes the winners some time to get up to speed on 
the requirements--a period during which disproportionate resources are 
dedicated. Once the work settles into a mutually satisfactory pattern 
that brings on economies of scale for the producer, the contract 
typically has little more time to run, often reducing profit margins 
still further after the initial out of pocket expenditures during the 
protracted contracting cycle. Some of our members note that their 
international customers typically contract for much longer periods, 
realizing that a given system will be in the inventory for decades, and 
the need for training on that system will therefore exist for a long 
time period. While there is some merit in the inherent flexibility 
built into shorter contractual timeframes, this appears to be largely 
negated by the factors cited by our membership.
    The OMB assertion that modeling and simulation is a ``specialized 
regimen'' and that the attributes of the industry--production of 
simulators, elaboration of software--are separate and distinct 
activities, not components of an industrial whole--is patently false. 
Such reasoning could be applied to any high-tech industry. Symptomatic 
of the illogic of the Economic Classification Policy Committee is the 
fact that the latest judgment is based on guidelines elaborated in 
1992. We submit that stipulations of nearly two decades ago are wholly 
inadequate to the classification of most high technology industries 
that have exploded onto the scene in the intervening years.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. If carried out, how would the Defense Business Board 
recommendation to eliminate Joint Forces Command impact modeling and 
simulation efforts underway or planned within DOD?
    General Layfield. No decisions have been made about how functions 
will transition based on the Secretary of Defense's decision to 
disestablish USJFCOM. The current Unified Command Plan assigns USJFCOM 
the responsibilities to lead the development and operation of joint 
training systems and architectures, develop new concepts, test them 
through experimentation and, in collaboration with other combatant 
commands, services and agencies, recommend solutions to better 
integrate joint and combined warfighting capabilities. These 
responsibilities require the development, integration and sustainment 
of a joint modeling and simulation environment for training and 
experimentation. The joint modeling and simulation training environment 
supports force preparation for deployment to Iraq, Afghanistan, and the 
Horn of Africa, readying combatant command staffs and joint task force 
headquarters. This training addresses command and control of joint 
operations; Service tactical level units executing Joint tasks; and 
preparing individual augmentees to join a deployed joint staff. In 
concert with Office of the Secretary of Defense, the services and 
coalition partners, USJFCOM currently develops and maintains 
interoperability standards and protocols for Joint training systems in 
order to integrate partner simulations into a collective/seamless joint 
training environment. The joint modeling and simulation experimentation 
environment is used to address warfighter challenges submitted by the 
combatant commanders and services, focusing on the most pressing 
challenges and issues. USJFCOM also integrates requirements and 
facilitates development efforts across the combatant commands and 
services for modeling and simulation in order to replicate the evolving 
joint operating environment. USJFCOM is also currently chartered to 
provide an integrating role across the Services training modeling and 
simulation programs in order to moderate and facilitate the Joint 
requirements, and design solutions across and with the Services.
    OSD would ensure the proper transition of the modeling and 
simulation functions currently performed by USJFCOM if the 
disestablishment action is executed.
    Mr. Wittman. What advances in modeling and simulation has Joint 
Forces Command contributed to?
    General Layfield. USJFCOM develops and maintains an all Service 
Joint modeling and simulation training federation, integrating joint, 
inter-agency and service models to create a seamless joint training 
environment. When tasked to address deficiencies in the Joint 
Simulation System (JSIMS) program, USJFCOM developed a federation of 
models that addressed JSIMS requirements. This was accomplished through 
sound systems engineering practices, with service collaboration, and at 
a fraction of the cost of the JSIMS program.
    USJFCOM also develops, integrates, and sustains both the Joint 
Theater Level Simulation (JTLS) system and the Joint Live Virtual 
Constructive (JLVC) federation, which provided training support to 16 
separate combatant command events in FY10, and multiple Multinational 
and Service led training events. These unique modeling and simulation 
systems have allowed combatant commands to analyze courses of action 
and provide training in preparation for potential operation plans 
(OPLANS) and contingency plans (CONPLANS). These systems have also 
allowed for expanded training with partner nations and with other DOD 
Service training programs.
    DOD's Joint Knowledge Online (JKO), managed by USJFCOM, is an 
online training capability that continuously and rapidly adapts to meet 
emerging training needs by leveraging simulation technology. Two 
simulation-based training applications available via JKO in 2010 are 
the Virtual Cultural Awareness Trainer (VCAT) and the Small Group 
Scenario Trainer (SGST). VCAT uses advanced learning techniques to help 
students quickly and efficiently develop operational cultural 
knowledge, and acquire cultural skills. As previously described, the 
SGST application for scenario-simulating training exercises is a JKO-
hosted, Web-based exercise application for multiplayer, small group 
teams, cells and battle staff training exercises. The system uses 
interactive capabilities to teach creative thinking skills and address 
problems encountered during virtual sessions using mission-based, 
simulated scenarios.
    JKO is developing two use cases for the USJFCOM Joint Advanced 
Concepts Division's NEXUS Virtual World capability. NEXUS is a 
collaborative project between the Defense Acquisition University (DAU), 
the Army Research and Development Command (RDECOM), Joint Advanced 
Distributed Learning Co-Lab (JADL Co-Lab) and Engineering and Computer 
Simulations (ECS). It is avatar-based, synchronous classroom training 
for government users. The overarching goal is to give user's access to 
a blended curriculum that uses virtual, avatar-based environments, 
providing both synchronous and asynchronous learning opportunities that 
can be integrated with JKO. NEXUS enables key virtual world 
instructional and functional capabilities, including student and 
classroom management, media sharing, and voice/text communications, 
linking to external content and other features.
    USJFCOM, in conjunction with the Services and Agencies conducts 
Joint Concept Development and Experimentation (JCD&E) for the DOD, 
developing the synthetic environments within which assessments are made 
to determine the viability of the numerous concepts and solutions that 
address the Warfighter Challenge defined by COCOMs and Services. These 
synthetic environments are critical to forming the data required to 
support analytic rigor--essential for effective JCD&E. USJFCOM has been 
successful in driving change within the DOD in the form of improved 
technical and operational architectures, new tactics, techniques and 
procedures, and materiel solutions, enabling the current and future 
joint warfighter. USJFCOM developed a simulation environment capable of 
scaling more than 10 million entities to enable experimentation within 
large population centers, leveraging supercomputers capacity provided 
by the DOD High Performance Computing Modernization Program (DOD 
HPCMP).
    USJFCOM has provided the initial test environment for modeling and 
simulation initiatives within DOD, such as the evolution of protocol 
which enables the federation of more than 40 different simulations into 
a singular joint warfighting environment (known as the High Level 
Architecture or HLA).
    USJFCOM routinely supports deployed combatant command and NATO 
efforts to ``reach back'' to technical modeling and simulation 
capabilities and analytic support. USJFCOM was the first organization 
to implement those capabilities, by examining the impact of a region's 
political and economic systems, as well as culture, infrastructure and 
information systems. It also addresses how warfighters might influence 
those regional systems through diplomatic, informational, military and 
economic actions in order to achieve combatant command objectives.
    USJFCOM habitually uses and improves upon the best modeling and 
simulation capabilities produced by the services as well as agencies 
such as the Defense Threat Reduction Agency (DTRA), producing and 
providing environments rich in joint context for joint training and 
experimentation.
    Mr. Wittman. What enhancements to military readiness through 
modeling and simulation efforts has Joint Forces Command played a role 
in?
    General Layfield. USJFCOM has enhanced and sustained readiness 
levels at all of the combatant commands, across several service 
training programs, and with many of our multinational partners through 
the use of its unique modeling and simulation capabilities. We have 
enabled joint training across the DOD through the development of a 
globally distributed Joint training environment, integrating Service 
and combatant command training sites, facilities and systems. By 
accurately portraying a joint operating environment, USJFCOM has 
provided a realistic synthetic playing field from which training 
audiences can analyze options, train on specific tasks, sustain 
readiness on critical skills and be better prepared as a whole for the 
operations of tomorrow. We do this by conducting intense, high quality 
training today. There is a direct correlation from the modeling and 
simulation development efforts led by USJFCOM to enhancements in 
military readiness.
    The Geospatial Analysis and Planning Support (GAPS) Toolkit is a 
collection of capabilities developed through experimentation by USJFCOM 
Joint Urban Operations Office (JUOO) and JCD&E (J9), which models 
sensor coverage and improves sensor placement for infiltration analysis 
in border regions. The GAPS toolkit was initiated as a response to 
Commander USCENTCOM's request for assistance in Pakistan-Afghanistan 
border Intelligence, Surveillance and Reconnaissance (ISR) planning. 
GAPS toolkit and training provides operational units in Operation Iraqi 
Freedom and Operation Enduring Freedom with sensor visibility analysis, 
pathfinder analysis and other optimization capabilities. In September 
2009, U.S. Forces-Afghanistan requested our continued support to GAPS 
toolkit for combat deployed units. After Action Reviews with the 82nd 
Airborne Division and Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) highlighted GAPS utility to the warfighter.
    Some additional highlights regarding VCAT and SGST use and 
advancements include:

    USJFCOM JKO Enabling the US Army. Partnering with the U.S. Army 
Training Support Center (ATSC) at Fort Eustis, VA., JKO is assisting 
the Army in developing one of its top training enablers, the Persistent 
Learning Capability (PLC). JKO collaboration supports individual 
training components as the Army attempts to replace resident New 
Equipment Training (NET) Fielding Teams via online venues. It supports 
the collective brigade/battalion staff training component by leveraging 
existing JKO SGST technologies. Additionally, the Army Center of 
Excellence for Professional Military Ethic (ACPME) is collaborating 
with JKO focusing on developing a truly Web-based immersive ethics 
training simulator. ACPME plans on leveraging JKO's success with 
Virtual Cultural Awareness Trainer (VCAT) technologies.

    USJFCOM JKO VCAT Support. Personnel deploying to augment HQ CJTF-
HOA in 2010 represent the first staff rotation exposed to VCAT prior to 
initial deployment in theater. JKO Joint management Office provided 
login and access information to Commander, 2nd Fleet staff, hosting the 
individual augmentation replacements, as well as to members of the HOA 
core staff replacement group. Approximately 47 personnel took the VCAT 
course, including five core staff members of varying ranks and billets. 
The overall reaction was extremely positive. Those surveyed judged VCAT 
as much superior to the cultural awareness provided by any of the other 
courses taught in their training program (including an instructor-led 
cultural awareness briefing). Recipients were especially impressed with 
the videos presented in the course. VCAT scenarios are also being 
developed for USCENTCOM (Afghanistan), USAFRICOM (North Africa), 
USSOUTHCOM (Andean Ridge region).

    SGST Scenario Development. Since its operational availability in 
2009, JKO has received several requests for scenario simulations in 
response to specific Combatant Command training requirements, including 
U.S. Transportation Command (USTRANSCOM) Humanitarian Assistance/
Disaster Relief Environment Exercise; JIEDDO Joint Training Counter-
Improvised Explosive Device Operations Integration Center Afghanistan, 
USSOUTHCOM Pandemic Flu and Humanitarian Assistance and USJFCOM Special 
Operations Command procedures scenarios.

                                  <all>

</pre></body></html>
